<html>
<title> - CURRENT WATER AND POWER LEGISLATION</title>
<body><pre>[Senate Hearing 110-376]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-376
 
                  CURRENT WATER AND POWER LEGISLATION 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                    S. 177                     S. 1473
                    S. 1474                    S. 1929
                    S. 2370                    H.R. 1139
                    H.R. 1855                  H.R. 2085
                    H.R. 2381
                                     

                               __________

                           FEBRUARY 28, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------

                        U.S. GOVERNMENT PRINTING OFFICE 

42-405 PDF                     WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                  TIM JOHNSON, South Dakota, Chairman

BYRON L. DORGAN, North Dakota        BOB CORKER, Tennessee
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
JON TESTER, Montana                  JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee




















































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     2
Cornett, Mick, Mayor, Oklahoma City, OK..........................    14
Janzen, Carl, President, Board of the Madera Irrigation District, 
  Madera, CA.....................................................    17
Johnson, Hon. Tim, U.S. Senator From South Dakota................     1
Kyl, Hon. Jon, U.S. Senator From Arizona.........................     2
Potucek, Charles P., City Manager, Sierra Vista, AZ..............    24
Quint, Robert J., Director of Operations, Bureau of Reclamation, 
  Department of the Interior.....................................     5
Radanovich, Hon. George, U.S. Representative From California.....     3
Rossi, John, General Manager, Western Municipal Water District, 
  Riverside, CA..................................................    21

                               APPENDIXES

                               Appendix I

Responses to additional questions................................    29

                              Appendix II

Additional material submitted for the record.....................    33


                  CURRENT WATER AND POWER LEGISLATION

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2008

                                       U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Tim Johnson 
presiding.

OPENING STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH 
                             DAKOTA

    Senator Johnson. I call to order this hearing before the 
Water and Power Subcommittee. It's my pleasure to welcome 
everyone to this afternoon's hearing. We have two panels of 
witnesses here today--several who have traveled across the 
country to provide us their views. Thank you for your efforts.
    We also have Congressman Radanovich of California here to 
speak on behalf of a bill that he was sponsoring.
    The following bills are before us today:
    One, S. 177 and H.R. 2085 would authorize the Bureau of 
Reclamation to transfer title to certain facilities that are 
part of the McGee Creek Projects in Oklahoma.
    Two, S. 1473 and H.R. 1855 would authorize Reclamation to 
participate in the design and construction of the Madera Water 
Supply Enhancement Project in California.
    Three, S. 1474 and H.R. 1139 also address water supply 
issues in California for authorizing Reclamation to participate 
in the design and the construction of the Riverside Corona 
Water Supply Project.
    Four, S. 1929 would authorize a feasibility study to 
evaluate alternatives to augment the water supply in the Sierra 
Vista Watershed in Arizona.
    Five, S. 2370 would clear title to certain parcels of land 
associated with the Middle Rio Grande Project in New Mexico.
    Six, H.R. 2381 establishes a scientific program within the 
Department of the Interior to manage sediment and nutrient loss 
in the Upper Mississippi River Basin.
    These bills illustrate the ongoing need that exists for the 
Federal Government to work in close partnership with States and 
local entities to address the serious water issues facing many 
communities. I look forward to hearing more about these issues 
today, and working with the members of the committee to try and 
enact some of these bills into law.
    I'll now turn it over to Senator Corker, the ranking member 
on the subcommittee, for an opening statement.
    [The prepared statement of Senator Kyl follows:]
     Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona
    Mr. Chairman, Members of the Subcommittee, thank you for holding 
this hearing on S. 1929, the Sierra Vista Subwatershed Feasibility 
Study Act. introduced this bill, along with Senator McCain, in August 
2007 to authorize the Secretary of the Interior to study alternatives 
to augment the water supplies in southern Arizona in the Sierra Vista 
Subwatershed. This critical region is home to a congressionally 
protected riparian area known as the San Pedro Riparian National 
Conservation Area (SPRNCA), the U.S. Army Intelligence Center at Fort 
Huachuca, and nearly 76,000 residents.
    SPRNCA, which protects nearly 43 miles of the San Pedro River, 
serves as a principal passage for the migration of approximately four 
million birds. It also provides crucial habitat for 100 species of 
birds, 81 species of mammals, 43 species of reptiles and amphibians, 
and two threatened species of native fish. The Nature Conservancy has 
called the area one of the ``last great places on earth.''
    Fort Huachuca, which is adjacent to SPRNCA, plays a critical role 
in this country's national security by, among other things, training 
soldiers in military intelligence. It also is the largest employer in 
the area, contributing greatly to the economy of Cochise County and the 
State of Arizona.
    In recent years, the Fort has done an exemplary job of implementing 
water conservation and recharge measures as part of its 
responsibilities under the Endangered Species Act. Indeed, since 1995, 
it has reduced its groundwater pumping by more than 50 percent.
    Nevertheless, water levels in certain areas of the regional aquifer 
in the Sierra Vista Subwatershed are still declining due to natural 
causes and development near Sierra Vista. Because SPRNCA and the Fort 
could be negatively affected by these declining water levels, a 2007 
U.S. Bureau of Reclamation appraisal level study concluded that 
augmenting the local water supply is necessary. To that end, 
Reclamation's study recommended several augmentation alternatives for 
further study, all of which are supported by the Upper San Pedro 
Partnership, a congressionally recognized consortium of 21 local, 
state, and federal agencies and private organizations.
    S. 1929 would authorize the Secretary to conduct a feasibility 
study of the augmentation alternatives recommended in the preliminary 
appraisal level report for further study. The legislation would also 
authorize appropriations for the federal share of the study's costs. 
Importantly, the non-federal cost share would be at least 55 percent as 
opposed to the standard 50 percent, indicating the non federal parties' 
strong commitment to the study.
    The feasibility study that would be authorized under this 
legislation is the next step in the process of determining how to best 
address the water challenges facing the Sierra Vista Subwatershed. 
Consequently, I hope that the Subcommittee will work with Senator 
McCain and me in securing the bill's swift passage in the 110th 
Congress.

          STATEMENT OF HON. BOB CORKER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Corker. Mr. Chairman, I want to thank you for 
having this hearing. I want to just tell you, I'm so glad 
you're back at the helm.
    Senator Johnson. Yes.
    Senator Corker. Thank you very much for being here. I know 
the bills that are under consideration today will serve a 
number of purposes that are important to members of this 
committee and all members of the Senate. Several regions of the 
country, including my home State, have been affected by 
drought. Not just this year, but for many years.
    Any legislation that will assist these areas by improving 
and expanding their water infrastructure availability certainly 
deserves our full attention. So I want to thank all the 
witnesses, especially the Congressman coming over. I've got a 
conflict in 10 minutes. I hope I get to hear most of what you 
have to say, but thank you very much for being here, and 
certainly, for all the witnesses. Thank you, Mr. Chairman.
    Senator Johnson. If there are no other statements, we'll 
proceed to Congressman Radanovich, and then to our witnesses.
    It's a pleasure to have you here, Congressman Radanovich. 
Please go ahead and make your statement on the Madera Water 
Supply Enhancement Act.

 STATEMENT OF HON. GEORGE RADANOVICH, U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman. It's a pleasure to 
be before your committee. Thank you, Ranking Member Senator 
Corker, as well. I'm going to testify on behalf of Senate Bill 
1473, which is the Madera Water Supply Enhancement Act.
    The Act authorizes the Bureau of Reclamation to participate 
in the design and construction of the Madera Water Supply and 
Enhancement Projects, an important water bank, which will help 
improve the water supply in California's San Joaquin Valley. 
This water bank will be located on a 13,000-acre parcel, called 
Madera Ranch, that is ideal for percolating water from the 
surface to the aquifer for storage and valuable habitat for 
numerous species in native grasslands.
    This project will allow the Madera Irrigation District to 
bank excess water and rain, accumulating in wet years and to 
provide a source of water in dry years. The Madera Irrigation 
District is deeply invested in making this project a reality. 
They've invested over $40 million to acquire the land and plan 
this project.
    In addition to the numerous studies undertaken in the past 
10 years, verifying the feasibility and the environmental 
impact, this project is ready to immediately move in to the 
construction phase with the passage of this legislation.
    Faced with a future of long-term drought, reduced water 
exports from the Sacramento/San Joaquin delta, and detrimental 
judicial decisions that threaten water supply, California's San 
Joaquin Valley needs water supply projects such as this now 
more than ever. America relies on the productivity of the San 
Joaquin Valley for much of its food supply. The San Joaquin 
Valley and--excuse me, for much of its food supply, and water 
is its lifeblood.
    The San Joaquin Valley's economic wellbeing depends on 
having a secure, sufficient, and reliable water supply. The 
Madera Water Supply Enhancement Project increases water supply, 
providing groundwater resource protection and litigates the 
water supply impacts of the San Joaquin River Restoration 
Project.
    As the State continues their dialog and debate over the 
larger issues of water supply and storage, we must step forward 
and make the Madera water bank a reality. I was pleased to help 
guide H.R. 1855, the companion legislation, through the House 
of Representatives, where it passed last year in October 22.
    I do now urge support and ask for your assistance in moving 
this through the Senate to expand the water supply 
opportunities for California's San Joaquin Valley. I would end 
in stating that this is a project that enjoys broad-based 
support--not only from the development, but also the 
environmental community--and is much needed.
    So any help I can get getting this to the Senate, I'd sure 
appreciate it.
    [The prepared statement of Mr. Radanovich follows:]
   Prepared Statement of Hon. George Radanovich, U.S. Representative 
                            From California
    Chairman Johnson and Ranking Member Corker, thank you for holding 
this hearing on S. 1473/H.R. 1855 the Madera Water Supply Enhancement 
Act. I am pleased to testify before you in support of such an important 
project located in my Congressional district in Madera, California.
    The Madera Water Supply Enhancement Act authorized the Bureau of 
Reclamation to participate in the design and construction of the Madera 
Water Supply and Enhancement Project, an important water bank which 
will help improve water supply in California's San Joaquin Valley. The 
Madera Water Supply and Enhancement Project will be located on the 
13,000-acre Madera Ranch, land that is ideal for percolating water from 
the surface to the aquifer for storage and valuable habitat for 
numerous species and native grasslands. This project will allow the 
Madera Irrigation District to bank excess water and rain accumulating 
in wet years and to provide a source of water in dry years.
    The Madera Irrigation District is deeply invested in making this 
project a reality. They have invested over $40 million to acquire the 
land and plan this project, in addition to the numerous studies 
undertaken in the past ten years verifying the feasibility and 
environmental impacts. This project is ready to immediately move into 
the construction phase with the passage of this legislation.
    Faced with a future of long term drought, reduced water exports 
from the Sacramento-San Joaquin Delta, and detrimental judicial 
decisions that reduce water supply, California's San Joaquin Valley 
needs water supply projects such as this, now more than ever. Our 
nation relies on the productivity of the San Joaquin Valley for much of 
our food supply. As an agriculturally based region, water is the 
lifeblood of the San Joaquin Valley and the economic well-being depends 
on having a secure, sufficient and reliable water supply. The Madera 
Water Supply Enhancement Project increases water supply, provides 
groundwater resource protection, and mitigates the water supply impacts 
of the San Joaquin River restoration project. As the State continues 
their dialog and debate over the larger issues of water supply and 
storage, we must step forward and make the Madera water bank a reality.
    I was pleased to help guide H.R. 1855 through the House of 
Representatives, where it passed on October 22, 2007. I now urge your 
support and assistance in moving this legislation through the Senate, 
to expand the water supply opportunities in California's San Joaquin 
Valley.

    Senator Johnson. Thank you again, Representative 
Radanovich, for providing your views. We'll look forward to 
taking a closer look at your legislation. I'd now like to ask 
our first panelist to come up and take a seat at the witness 
table. Thank you.
    Before starting, I'd like to quickly note that the 
subcommittee has received additional written testimony on 
several of the bills before us today. The testimony, as well as 
the written submissions of the witnesses here today, will be 
made part of the official hearing record.
    The first panel consists of one witness, representing the 
Administration's views on the bills before us today. We have 
Robert Quint, Director of Operations of the Bureau of 
Reclamation. Thank you for being here today, Mr. Quint. Please 
provide a summary of your written testimony. Following that, 
we'll have a brief question and answer period, and then move on 
to the second panel.

STATEMENT OF ROBERT J. QUINT, DIRECTOR OF OPERATIONS, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Quint. Thank you, Mr. Chairman, and it's good to have 
you back chairing this subcommittee.
    Senator Johnson. Yes.
    Mr. Quint. Mr. Chairman, and members of subcommittee, I am 
Robert Quint, Director of Operations for the Bureau of 
Reclamation. Thank you for the opportunity to appear today to 
present the Administration's views on several Reclamation-
related bills pending before your subcommittee.
    Also, I'd like to note that the U.S. Geological Survey has 
provided a statement for the record on H.R. 2381 that reflects 
support for the bill's goal of providing sound science for the 
managing of sediment and nutrient loss in the Upper Missouri 
River Basin.
    I'd like to introduce, to my left, Timothy Miller, Chief of 
the USGS Office of Water Quality, who is here with me to answer 
any questions you may have on this particular legislation.
    The Department, as you mentioned, has already submitted 
written statements on the five other bills, so I'd be happy to 
keep my verbal remarks brief. I'll discuss the legislation in 
the order that they are in the hearing announcement.
    On S. 177/H.R. 2885, which would authorize the Secretary of 
Interior to convey certain lands and facilities of the McGee 
Creek Project in Oklahoma to McGee Creek Authority, the 
Administration supports this bill, and we thank the 
subcommittee for considering it today. The Department of 
Interior has an active title transfer program and supports 
transferring ownership of certain Reclamation Project 
facilities to non-Federal entities.
    Initial discussions on this transfer began in 1997. 
Reclamation and the McGee Creek Authority have been working 
collaboratively to lay the groundwork for this title transfer 
since that time. To cooperative efforts of the Authority, all 
elements required by Reclamation for the title transfer have 
been successfully addressed for the McGee Creek Project. The 
Authority has provided funding for Reclamation to complete the 
necessary environmental, legal, and historic preservation 
documentation for this transfer.
    The costs of lands, buildings, and facilities to be 
transferred have already been repaid, pursuant to the 
Authority's original Repayment Contract. There is no ongoing 
revenue streams associated with these lands and facilities. As 
such, no additional payment for this transfer is required.
    In addition, this title transfer protects the financial 
interest of the United States. Transferring title of these 
facilities will reduce the number of administrative burdens on 
Reclamation. Again, we support passage of S. 177, as it 
represents a cooperative and cost-effective process that will 
provide a benefit to the Authority and Reclamation.
    The next bill, S. 1473/H.R. 1855, the Madera Water Supply 
Enhancement Act would authorize the Secretary to enter into a 
cooperative agreement with Madera Irrigation District to 
support the Madera Water Supply Enhancement Project. While 
Reclamation has been an active partner with the Madera 
Irrigation District and other entities in studying this 
project, the Department cannot support this bill at this time.
    Reclamation in the State of California have studied the 
Madera Water Supply Enhancement Project. In March 2007, 
Reclamation published an appraisal report for this project, 
which is transmitted to Congress. The cost for the project is 
estimated to be approximately $91 million. Because a 
feasibility study for the Madera Water Supply Enhancement 
Program has not been completed, it is premature to authorize 
Federal implementation at this time.
    Moreover, the project would directly compete for funding 
with other currently authorized projects in the CVP service 
area, including several storage studies authorized under the 
CALFED Program, standing obligations to complete multimillion-
dollar backlogs in authorized world water projects, aging 
infrastructure requiring rehabilitation, ongoing water 
recycling projects, and other fiscal pressures. In light of the 
concerns expressed above, the Department cannot support S. 1473 
at this time.
    On S. 1474/H.R. 1139, which would authorize the Secretary 
of Interior to participate with the Western Municipal Water 
District in the planning, design, and construction of a water 
supply project known as the Riverside-Corona Feeder, for 
reasons described below, the Department cannot support this 
bill in its present form.
    This project would withdraw water from the San Bernardino 
Valley groundwater aquifers that are replenished during wet 
years from local runoff, regulated releases from the Seven Oaks 
Reservoir, and water from the State Water Project. It would 
consist of a number of wells and connecting pipelines, which 
would deliver up to 40,000 acre feet of water annually to 
communities in Western Riverside County.
    Mr. Chairman, while the Department encourages the type of 
resourceful utilization of local water supplies this bill calls 
for, and it has a potential for reducing the use of important 
supplies from the Colorado River and the California Bay Delta, 
we do not support S. 1474 in its present form. We understand 
that feasibility level studies have not yet been completed for 
this project. Without a proper analysis to do this feasibility 
level of detail, we cannot support Reclamation's participation 
in design and construction activities.
    In fiscal year 2008, Congress appropriated additional 
planning fund beyond Reclamation's fiscal year 2008 request for 
continued involvement with the District as they finalized their 
feasibility work. Reclamation will continue to work with the 
officials from the Western Municipal Water District on the 
project and provide them guidance for their feasibility 
analysis and the appropriate level of need for compliance that 
would be needed.
    S. 1929/H.R. 3328, which would authorize the Secretary of 
Interior, acting through the Commissioner of Reclamation, to 
conduct a feasibility study of water augmentation alternatives 
in the Sierra Vista Subwatershed, located in Southeastern 
Arizona, the Department does not support the proposed 
legislation at this time.
    This legislation would provide for a Federal funding of 
$1.26 million, with a local share of 55 percent, for an 
estimated total cost of $2.8 million. The Upper San Pedro 
Partnership, a consortium of Federal, State, local, and private 
groups, was established in 1988 to address water needs in the 
Sierra Vista Watershed.
    Reclamation became a consortium member in 2004. At the 
request of the partnership, Reclamation prepared an appraisal 
report that was completed in June 2007. A total of 14 
augmentation alternatives were evaluated, resulting in a 
partnership selecting 3 alternatives for further analysis.
    The appraisal report also identified significant legal and 
institutional issues that need to be addressed by local 
stakeholders in order to make progress. For example, the 
partnership is not a traditional government entity in that its 
membership consists of representatives from Federal, State, and 
local governments, as well as nonprofit organizations and local 
businesses.
    It has no legal authority to construct, operate, or repay 
capital costs. Because of this, Reclamation cannot legally 
contract with the partnership. Alternatives under consideration 
would need to be implemented by an entity other then the 
partnership. Upon resolution of this and other outstanding 
issues, Reclamation suggests that a feasibility study would be 
the next logical step for the partnership.
    Again, while Reclamation does not support this legislation 
at this time, we fully understand the tremendous importance of 
these issues to local stakeholders, the State, and the Federal 
Government. Reclamation will continue to work with the 
partnership on these issues.
    Finally, S. 2370 would authorize the transfer of title to 
real property in New Mexico, associated with the Middle Rio 
Grande Project. The Department is not opposed to the concept of 
transferring ownership of lands described in this legislation 
to another entity. Given current circumstance, including 
ongoing litigation, the lack of any excess lands determination, 
or an appraisal of land identified for transfer, the Department 
feels that this legislation is premature.
    The Department has been a defendant in litigation that saw 
quiet titles to properties associated with the Middle Rio 
Grande Project. However, title claims by the United States to 
this land in question have been vindicated by the U.S. District 
Court, and are now under appeal in the Tenth Circuit.
    In light of the litigation and the uncertainty that 
surrounded the title questions before the District Court's 
recent decision, the city of Albuquerque initiated improvements 
on this property under a license agreement with the 
Reclamation. The city of Albuquerque developed the Albuquerque 
BioPark and associated properties for public uses that benefit 
Albuquerque citizens.
    The manner in which the city of Albuquerque obtained the 
property from the Middle Grande Conservancy District was 
inconsistent with established procedures for conveying title to 
Federal property to another party. Nevertheless, the Department 
does not believe this was a result of carelessness or neglect 
on the part of the city of Albuquerque, nor does the Department 
believe this was an intentional encumbrance of Federal 
property. However, until the litigation is settled and for the 
other reasons given, we feel this legislation is premature.
    Mr. Chairman, that concludes my testimony. Thank you for 
the opportunity to comment on this pending legislation. We'd be 
happy to answer any questions you might have.
    [The prepared statement of Mr. Quint follows:]
 Prepared Statement of Robert J. Quint, Director of Operations, Bureau 
               of Reclamation, Department of the Interior
                                 s. 177
    Mr. Chairman and members of the Subcommittee, I am Robert J. Quint, 
Director of Operations for the Bureau of Reclamation. I am pleased to 
appear before this Subcommittee to provide testimony on S. 177, 
legislation to authorize the Secretary of the Interior to convey 
certain lands and facilities of the McGee Creek Project in Oklahoma to 
the McGee Creek Authority (Authority). The Administration supports this 
bill and we thank the committee for considering it today.
    The Department of the Interior has an active title transfer program 
and supports transferring ownership of certain Reclamation project 
facilities to non-Federal entities. Initial discussions on this 
transfer began in 1997, and Reclamation and the McGee Creek Authority 
have been working collaboratively to lay the groundwork for this title 
transfer since that time. Reclamation and the Authority entered into a 
Memorandum of Agreement (MOA) in 1998 for the purpose of defining the 
activities and responsibilities necessary to move forward with the 
proposed transfer. Before the transfer could be finalized and the 
necessary legislation could be proposed, the agreement expired in 
September 2002. In 2006, the Authority again expressed interest in the 
transfer and in April of that year, a new MOA was executed.
    Through cooperative efforts with the Authority, all elements 
required by Reclamation for title transfer have been successfully 
addressed for the McGee Creek project. The Authority has provided 
funding for Reclamation to complete the necessary environmental, legal, 
and historic preservation documentation for this transfer, including a 
Final Environmental Assessment and Finding of No Significant Impact, 
concurrence from the State Historic Preservation Officer, a hazardous 
materials clearance, and conveyance documents.
    The costs of the lands, buildings and facilities to be transferred 
have already been repaid pursuant to the Authority's original repayment 
contract. All of the lands to be transferred were acquired by 
Reclamation when the project was built and the original repayment 
contract incorporated acquisition costs together with the costs 
associated with the construction of the project facilities and 
associated easements, lands and buildings. There are no ongoing revenue 
streams associated with these lands and facilities. As such, no 
additional payment for this transfer is required.
    In addition, this title transfer protects the financial interest of 
the United States. Transferring title to these facilities will reduce a 
number of administrative burdens on Reclamation including periodic 
facility reviews that are currently required because it is a 
Reclamation owned facility, and the processing of paperwork that 
currently consumes significant staff time. It will also ensure that 
long term responsibility for the operation, maintenance, management, 
and regulation, as well as liability, for the transferred lands and 
facilities will rest with the Authority.
    Again, we support passage of S. 177 and thank the subcommittee for 
holding this hearing. It reflects a cooperative and cost effective 
process that will provide a benefit to the Authority and Reclamation.
    This concludes my testimony and I would be pleased to answer any 
questions.
                                s. 1473
    Mr. Chairman and members of the subcommittee, I am Robert J. Quint, 
Director of Operations, Bureau of Reclamation. I am pleased to present 
the Department of the Interior's views on S. 1473, the Madera Water 
Supply Enhancement Act. While Reclamation has been an active partner 
with the Madera Irrigation District and other entities in studying this 
project, the Department does not support S. 1473.
    Reclamation and the state of California have studied the Madera 
Water Supply Enhancement Project. The purpose of this project is to 
reduce the overdraft of the area's groundwater aquifer and improve 
water supply reliability. In March 2007, Reclamation published an 
appraisal report for this project and transmitted it to Congress. 
Appraisal reports are based upon existing information to determine 
whether additional studies to determine Federal feasibility are 
warranted.
    Reclamation's March 2007 appraisal report identified several 
alternatives, including delineation of groundwater recharge areas; 
engineered recharge basins on the Madera Ranch; and direct recharge 
from the San Joaquin and Fresno Rivers. The cost for the project is 
estimated at approximately $91 million, and section 5(b) of the 
legislation commits the Federal government to paying 25 percent of 
project costs. The total storage space is 250,000 acre-feet. However, 
it is important to note that while a maximum of 55,000 acre-feet can be 
moved to and from storage in any given year, the average annual water 
yield is estimated to be 20,000 acre-feet per year. Altogether, an 
appraisal level estimate is that this project would provide water at a 
cost of $420 per acre-foot.
    Although the bill lists eighteen studies that have been completed 
relating to this project, none of these studies meet Reclamation's 
feasibility study criteria. Because Reclamation has not completed a 
feasibility study of the Madera Water Supply Enhancement Project, it is 
premature to authorize Federal implementation at this time. Moreover, 
this project would directly compete for funding with other currently 
authorized projects in the CVP service area, including several storage 
studies authorized under the CALFED Program (PL 108-361).
    Reclamation continues to emphasize completion of ongoing projects 
and the safe and effective maintenance of its aging infrastructure. 
Reclamation must prioritize its program activities to ensure that the 
most worthy projects receive funding. In light of these needs, 
Reclamation allocates funds to projects and programs based on objective 
and performance-based criteria to most effectively implement 
Reclamation's programs and its management responsibilities for the 
water and power infrastructure in the West.
    The Administration appreciates local efforts to address current and 
future water issues. However, in light of the concerns expressed above, 
the Department does not support S. 1473. That concludes my prepared 
remarks. I would be pleased to answer any questions.
                                s. 1474
    Mr. Chairman and Members of the Subcommittee, I am Robert J. Quint, 
Director of Operations, Bureau of Reclamation. I am pleased to be here 
today to present the views of the Department of the Interior on S. 
1474, a bill to authorize a water supply project in Southern 
California. For reasons described below, the Department does not 
support S. 1474.
    This bill would authorize the Secretary of the Interior to 
participate with the Western Municipal Water District in the planning, 
design, and construction of a water supply project known as the 
Riverside-Corona Feeder. It provides for Federal funding for this 
project of not more than 25 percent of the total project cost 
(including funding for planning studies), not to exceed $50 million.
    This project would withdraw water from San Bernardino Valley 
groundwater aquifers that are replenished during wet years from local 
runoff, regulated releases from Seven Oaks Reservoir, and water from 
the State Water Project. It would consist of a number of wells and 
connecting pipelines, which would deliver up to 40,000 acre-feet of 
water annually to communities in western Riverside County. Project 
benefits include local drought protection, better groundwater 
management, and reduced dependence on imported water.
    The economic and efficient use of water is a priority for the 
Department of the Interior. The Department strongly encourages local 
water supply efforts.
    Mr. Chairman, while the Department encourages the type of 
resourceful utilization of local water supplies this bill calls for and 
the potential for reducing the use of imported supplies from the 
Colorado River and the California Bay-Delta we do not support S. 1474. 
We understand that feasibility level studies have not yet been 
completed for this project. Without a proper analysis that adheres to 
the ``Economic and Environmental Principles and Guidelines for Water 
and Related Land Resources Implementation Studies,'' and which 
otherwise meets appropriate Federal guidelines for consideration of 
project authorization, we cannot support Reclamation's participation in 
design and construction activities.
    Reclamation is currently in consultation with the Western Municipal 
Water District on the project and providing them guidance on their 
feasibility analysis and the appropriate level of NEPA compliance that 
will be needed. In FY 2008 Congress appropriated additional planning 
funds beyond Reclamation's FY2008 request for continued involvement 
with the Western Municipal Water District as they finalize their 
feasibility work. Nevertheless, the Department believes that enactment 
of this legislation authorizing a new construction project places an 
additional burden on Reclamation, and could delay the completion of 
other currently authorized projects. Reclamation must prioritize and 
allocate funds to projects and programs based on objective and 
performance-based criteria to most effectively implement Reclamation's 
programs and its management responsibilities for the water and power 
infrastructure in the West.
    Thank you for the opportunity to convey our concerns on this 
legislation, and I would be pleased to answer any questions.
                                s. 2370
    Mr. Chairman and members of the Subcommittee, I am Robert J. Quint, 
Director of Operations, Bureau of Reclamation. Thank you for the 
opportunity to appear today to present the Administration's views on S. 
2370, which would transfer title to real property in New Mexico 
associated with the Middle Rio Grande Project and for other purposes.
    The Department is not opposed to the concept of transferring 
ownership of the lands described in this legislation to another entity. 
However, given current circumstances including ongoing litigation and 
lack of any excess-lands determination or appraisal of the lands 
identified for transfer, the Department feels that this proposed 
legislation is premature.
    A history of the ownership of this property will help explain the 
circumstances leading to the introduction of this bill. The Bureau of 
Reclamation acquired interests in Middle Rio Grande Project works 
through a conveyance document granted by the Middle Rio Grande 
Conservancy District (MRGCD) on November 24, 1953. The lands involved 
with the proposed legislation were included in that conveyance, and the 
United States has not relinquished its interest in those specific 
parcels. On November 25, 1997, MRGCD and the City of Albuquerque (City) 
entered into a real estate sales agreement through which the MRGCD sold 
the City approximately 65 acres of land associated with San Gabriel 
Park and Tingley Beach for $3,875,000.
    Article 7 of the sales agreement recognizes that the United States 
holds an interest in the properties, and MRGCD agreed to obtain a 
release of this interest from the United States. The sale was completed 
but the United States has never executed any release.
    The Department has been a defendant in litigation that sought to 
quiet title to properties associated with the Middle Rio Grande 
Project. While the litigation did not specifically name the properties 
associated with Tingley Beach or San Gabriel Biological Park, the U.S. 
District Court for the District of New Mexico found in July 2005 that 
title to all Middle Rio Grande project properties is vested in the 
United States. This decision is now being considered on appeal to the 
10th Circuit.
    In light of the litigation and the uncertainty that surrounded the 
title question before the District court's recent decision, the City of 
Albuquerque initiated improvements on this property under a License 
Agreement with Reclamation. The City has developed and improved San 
Gabriel Park and has created fishing ponds, a snack bar and other 
recreational facilities at Tingley Beach. They have also installed a 
small train which runs between the Albuquerque Biological Park 
(BioPark) and Tingley Beach. The BioPark has been fully developed by 
the city into an aquarium, botanic garden, a small farm and a refugium 
for the endangered Rio Grande silvery minnow.
    The City of Albuquerque developed the Park and associated 
properties for public uses that benefit Albuquerque's citizens. The 
manner in which the City of Albuquerque obtained the property from the 
Middle Rio Grande Conservancy District was inconsistent with 
established procedures for conveying title to federal property to 
another party. Nevertheless, the Department does not believe this was 
the result of carelessness or neglect on the part of the City of 
Albuquerque, nor does the Department believe this was an intentional 
encumbrance of federal property.
    The Department is reluctant to support transfers of title to 
federal property when those transfers circumvent existing procedures 
provided by generally applicable legislation. Federal policy generally 
requires that adequate consideration be paid to the United States 
before title is transferred.
    Mr. Chairman, that concludes my remarks and I would be happy to 
respond to any questions the Committee may have.
                          s. 1929 & h.r. 3328
    Mr. Chairman and Members of the Subcommittee, I am Robert J. Quint, 
Director of Operations Bureau of Reclamation. I am pleased to be here 
today to give the Department of the Interior's views on S. 1929 and 
H.R. 3328, the Sierra Vista Subwatershed Feasibility Act. The 
Department does not support the proposed legislation.
    The legislation would authorize the Secretary of the Interior, 
acting through the Commissioner of Reclamation, to conduct a 
feasibility study of water augmentation alternatives in the Sierra 
Vista Subwatershed, located in southeastern Arizona, Cochise County, in 
the upper San Pedro watershed, near the City of Sierra Vista. It 
provides for Federal funding of $1,260,000, with a local cost share of 
55%, for a total estimated cost of $2,800,000. In addition to local 
cost share for the study, a significant local effort will be required 
to resolve legal and institutional challenges in order to complete the 
study.
    The preservation of two important Federal facilities, Fort Huachuca 
(Fort) and the San Pedro Riparian National Conservation Area (SPRNCA), 
requires augmentation of the local water supply. Fort activities and 
associated development near the City of Sierra Vista have resulted in a 
substantial groundwater overdraft that is expected to negatively impact 
the San Pedro River (River). A section of the River was protected by 
Congress as the SPRNCA. As the area's largest employer, the Fort 
greatly benefits southeast Arizona's (and the entire State's) economy. 
Despite conservation and recharge measures, groundwater overdraft 
continues to grow.
    The Upper San Pedro Partnership (Partnership), a consortium of 
Federal, state, local and private groups, was established in 1988 to 
sustain the viability of the Fort and the River--Reclamation became a 
member in 2004. Also in 2004, Section 321 of the National Defense 
Authorization Act recognized the Partnership and directed it to prepare 
an annual report on progress toward the goal to ``restore and maintain 
the sustainable yield of the regional aquifer by and after September 
30, 2011.'' The 2011 date has motivated the Partnership to aggressively 
pursue feasibility authorization which could lead to implementation of 
an augmentation project.
    The Partnership hired a private consultant to investigate measures 
to offset groundwater mining, including conservation, recharge, and 
augmentation. Reclamation examined alternatives found in the report and 
identified data gaps; then helped the Partnership follow a process that 
characterized the augmentation portion of the problem, analyzed 
alternatives and screened them to identify viable solutions. 
Reclamation documented this process in an appraisal report completed in 
June 2007. A total of 14 augmentation alternatives were evaluated, 
resulting in the Partnership selecting three alternatives for further 
analysis: bringing Central Arizona Project (CAP) water to Sierra Vista, 
capturing and recharging stormwater, and reclamation and reuse of 
impaired mine water. A feasibility study would be the next logical step 
for the Partnership to secure Reclamation assistance with augmentation 
implementation. The appraisal report identifies significant legal and 
institutional issues that need to be addressed, by local stakeholders, 
in order to make progress. Only the CAP to Sierra Vista alternative 
completely addresses the Partnership's goal for augmentation.
    The Partnership is not a traditional government entity in that its 
membership consists of representatives from Federal, state and local 
governments, as well as non-profit organizations and local businesses. 
It has no legal authority to construct, operate, and repay capital 
costs. Because of this, Reclamation cannot legally contract with the 
Partnership.
    Water management in the area is further complicated by the fact 
that all of the local water providers are private entities. 
Alternatives under consideration would need to be implemented by an 
entity other than the Partnership. In 2007, the State of Arizona passed 
legislation enabling the creation of an Upper San Pedro Water District. 
The legislation establishes a temporary board, which is subject to a 
vote by residents to make it permanent.
    Reclamation recognizes issues of Federal concern in the Sierra 
Vista Subwatershed, including protected Federal lands in the SPRNCA, 
species listed under the Endangered Species Act, and the U.S. Army 
garrison at Fort Huachuca. A feasibility level study of water 
augmentation alternatives could help evaluate possible ways forward. 
Reclamation's appraisal report, however, identified water management 
challenges facing the basin, as well as legal issues associated with 
the alternatives. For instance, extending the CAP to Sierra Vista would 
entail not only the acquisition of a CAP water right, but the extension 
of the CAP service area. Extending the service area would require both 
modifications to State law and the CAP Master Repayment Contract.
    To address these issues and develop an augmentation project in a 
timely manner, Reclamation described a two-stage process in the 
appraisal report. The first stage would involve development of the 
appropriate legal and institutional mechanisms required to implement a 
project, while a programmatic feasibility/National Environmental Policy 
Act study is conducted in which a preferred alternative or alternatives 
will be identified. The completion of the first stage would allow the 
Partnership the time to develop the necessary institutions with 
repayment ability while providing more detailed design and cost 
information needed to make informed decisions. The second stage of the 
process involves a detailed specific feasibility design and 
environmental impact study for an augmentation project. This process 
avoids the expense of performing detailed, and costly, design and 
environmental work in the case that a project partner is not created or 
if other significant legal issues are not resolved. We note that the 
Partnership has worked through the issue of institutional repayment 
ability in the past by using either the City of Sierra Vista or Cochise 
County as fiscal agents.
    If issues could be resolved and a partner identified prior to 
feasibility authorization, consideration should be given to conducting 
a more detailed feasibility study in a one stage process that could 
move immediately to construction. Based on Reclamation's experience, 
the expected cost of conducting such a study would range from $5 to $10 
million and take longer to complete than the programmatic first stage 
study. However, if a project is certain to move to construction, the 
overall cost and time would be less than the proposed two stage 
process.
    Again, while Reclamation does not support the legislation given 
outstanding questions about institutional capacity and has not 
requested appropriations for the study this bill would authorize, we 
understand the tremendous importance to local stakeholders, the state 
and the Federal government of the resources involved. We will continue 
to work with the Partnership on ways to deal with the groundwater 
overdraft that the Sierra Vista Subwatershed is facing.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on S. 1929 and H.R. 3328. I would be happy to 
answer any questions at this time.
                                 ______
                                 
    Prepared Statement of the Geological Survey, Department of the 
                         Interior, on H.R. 2381
    Mr. Chairman and Members of the Subcommittee, the Department of the 
Interior appreciates the opportunity to provide its views on H.R. 2381, 
the ``Upper Mississippi River Basin Protection Act.''
    The Department appreciates the efforts of the sponsors of H.R. 2831 
to address this important issue and place emphasis within the bill on 
the need for reliance on sound science. However, we have concerns about 
the financial resources that would be required for the USGS to carry 
out this bill in the context of the availability of resources overall 
for Administration programs. In addition, although we support the goals 
of H.R. 2831 we note that the activities called for in this bill are 
duplicative of existing Department of the Interior authorities.
    The bill directs the Secretary of the Interior, acting through the 
USGS, to provide a scientific basis for the management of sediment and 
nutrient loss in the Upper Mississippi River Basin. This would be 
accomplished through establishing a sediment and nutrient monitoring 
network that builds on existing monitoring activities; conducting 
research and modeling that relates sediment and nutrient losses to 
landscape, land use and land management characteristics; providing 
technical assistance regarding use of consistent and reliable methods 
for data collection; and instituting a program to disseminate new 
information to managers, scientists and the public.
    The role identified for the Department in this bill is consistent 
with USGS's leadership role in monitoring, interpretation, research, 
and assessment of the health and status of the water and biological 
resources of the Nation. As the Nation's largest water, earth, and 
biological science, and civilian mapping agency, USGS conducts the 
largest single non-regulatory ambient water-quality monitoring activity 
in the Nation. The USGS has been active in a number of programs and 
investigations that involve the Upper Mississippi River Basin (UMRB) 
specifically.
    The USGS is a participant in the Mississippi River, Gulf of Mexico 
Watershed Nutrient Task Force. This Task Force, which has 
representation from federal agencies, and state and tribal governments 
in the basin, is charged with fulfilling requirements of The Harmful 
Algal Bloom and Hypoxia Research and Control Act of 1998, by preparing 
a plan for controlling hypoxia in the Northern Gulf of Mexico, and 
shares a common goal of improving water-quality conditions in the 
Mississippi River Basin.
    The USGS also had a lead role in the preparation of a science 
report that used available water-quality information to define a recent 
baseline condition for nutrient sources and loads in the Mississippi 
River Basin--a baseline from which future water-quality trends and 
improvements will be measured. This report identifies those parts of 
the Upper Mississippi River Basin that have the highest nutrient 
yields.
    The USGS has offices in each of the five Upper Mississippi River 
Basin states. These offices have a long history of conducting water-
quantity and water-quality monitoring and assessment activities within 
the basin. Existing USGS programs include the Hydrologic Networks and 
Analysis Program, the National Water-Quality Assessment Program, the 
National Stream Quality Accounting Network, the National Streamflow 
Information Program, the Toxic Substances Hydrology Program, the Water 
Resources Research Act Program, and the Cooperative Water Program, as 
well as cooperative efforts such as the Long-Term Resource Monitoring 
Program funded by the U.S. Army Corps of Engineers. These programs 
currently provide information on nutrients and sediment within the 
basin.
    For more than 20 years, the USGS Upper Midwest Environmental 
Sciences Center (UMESC) in La Crosse, Wisconsin has provided research 
support in the Upper Mississippi River Basin to DOI agencies and the 
U.S. Army Corps of Engineers to address complex issues of navigation, 
contaminants, and other natural resource concerns. More recently, this 
Center has developed an active partnership with the Department of 
Agriculture, Natural Resources Conservation Service, on sediment and 
nutrient concerns of the agencies. For over 15 years, the UMESC has 
provided the scientific and management leadership for the Long-term 
Resource Monitoring Program component of the U.S. Army Corps of 
Engineers' Upper Mississippi Restoration-Environmental Management 
Program. This monitoring program of water quality, fisheries, 
vegetation, land use, and other critical indicators of river health is 
the largest main stem river assessment program in the Nation. The USGS 
conducts monitoring activities in cooperation with many states and 
local governments in the Upper Mississippi River Basin. The USGS is 
also active in hydrologic and water-quality studies in the Lower 
Mississippi River Basin. The continuity of research is important from 
the standpoint of developing a complete assessment of the entire 
Mississippi River basin. To this end, the USGS has begun a partnership 
with the Long-term Estuary Assessment Group, centered at Tulane 
University.
    H.R. 2381 acknowledges the need to use all existing monitoring and 
science programs of the USGS and those of other entities while 
identifying information needs in the Upper Mississippi River Basin. 
Existing monitoring and assessment programs and development of models 
are tools for defining how water-quality conditions are affected by 
human activities and natural climatic variations and how management 
actions may best improve water-quality conditions at a wide range of 
scales from small watersheds to the Mississippi River Basin.
    The bill would also authorize integration of activities conducted 
in cooperation with other federal partners and would emphasize and 
expand the existing USGS coordination and assistance to state 
monitoring programs. For example, the U.S. Fish and Wildlife Service's 
(Service) Partners for Fish and Wildlife Program restores wetland 
habitat in watersheds across the country, including the Upper 
Mississippi River Basin. The Service can apply its expertise to the 
reduction of sediment and nutrient loss in the basin through 
participation in demonstration projects, technical assistance, and 
working groups. We recognize the need to ensure that future monitoring 
activities complement and do not duplicate state monitoring activities.
    In summary, while the proposed legislation describes a program 
consistent with current USGS activities to support protection of the 
UMRB and the Gulf of Mexico Watershed Nutrient Task Force 
recommendations, these conservation activities are already being 
addressed by other on-going programs. Funding for the activities in 
H.R. 2381 is not included in the fiscal year 2009 President's Budget 
proposal and would remain subject to available resources.
    Thank you, Mr. Chairman, for providing the Department with the 
opportunity to present this statement.

    Senator Johnson. As to S. 1474, by Senator Feinstein, 
Reclamation recently completed an EIS and Record of Decision on 
shortage-sharing in the Lower Colorado River Basin. On a 
related note, there was recently a substantial amount of news 
regarding the decreasing level of water in Lake Mead.
    Doesn't the Bureau of Reclamation have a strong interest in 
supporting projects like the Riverside-Corona Feeder Project, 
which can help California reduce its reliance on the Colorado 
River? What is the long-term forecast for water supplies in the 
lower Colorado River Basin?
    Mr. Quint. Our long-term prognosis is that it is going to 
be a very difficult situation to continue to deal with. As you 
may be aware, the Colorado River is an over-appropriated 
river----
    Senator Johnson. Yes.
    Mr. Quint. [continuing]. From the start. With the continued 
growth in the Southwest, there's even more needs that need to 
be met with that. Granted, this particular project would help 
alleviate some of the strains on that system. But, at this 
point in time, we can't support this project until it gets a 
little more along in its feasibility level of study.
    Senator Johnson. As to S. 1929, by Senator Kyl, Reclamation 
has already completed an appraisal-level study in three basic 
water augmentation alternatives in the Sierra Vista watershed.
    Did that report provide an estimated cost for each of the 
alternatives? If so, what are those estimates? Is there more 
that can be done in the area of water conservation?
    Mr. Quint. I am not aware, in detail, of what the report 
had, but we'd be glad to provide that information for the 
record. My understanding is, regarding water conservation, that 
there are significant water conservation activities going on in 
the Sierra Vista area. They are a very proactive community in 
trying to deal with water conservation issues.
    I think the issue there, as I understand it, is even with 
those water conservation efforts, the amount of water overdraft 
is exceeding the supply that's there.
    Senator Johnson. In the interests of time, we will submit 
additional questions for the record. I thank you, Mr. Quint, 
for being here today. You're excused.
    Mr. Quint. Thank you.
    Senator Johnson. On our second panel, we have the Honorable 
Mick Cornett, Mayor of Oklahoma City, testifying on S. 177 and 
H.R. 2085; Carl Janzen of the Madera Irrigation District in 
California on S. 1473 and H.R. 1855; John Rossi of the Western 
Municipal Water District in California on S. 1474 and H.R. 
1139; and Charles Potucek representing the Upper San Pedro 
Partnership in Arizona, testifying on S. 1929.
    Welcome to each of you. Mayor Cornett, please start by 
summarizing your testimony. We'll then proceed down the table 
for each of you to give your statements. I'll follow up with a 
couple of questions. Mayor Cornett.

      STATEMENT OF MICK CORNETT, MAYOR, OKLAHOMA CITY, OK

    Mr. Cornett. Chairman Johnson, thank you for the 
opportunity to testify today before the subcommittee. I am the 
Mayor of Oklahoma City. My name is Mick Cornett. I am here to 
present the views of the McGee Creek Authority on S. 177/H.R. 
2085, McGee Creek Project Pipeline and Associated Facilities 
Conveyance Act.
    This Act will transfer certain McGee Creek properties and 
associated facilities from the Bureau of Reclamation to the 
McGee Creek Authority. The McGee Creek Authority is a public 
trust of the State of Oklahoma, to which the city of Oklahoma 
City, the city of Atoka, and the county of Atoka are 
beneficiaries.
    All three entities benefit from the water rights they hold 
in the McGee Creek Reservoir, which is in Southeastern 
Oklahoma. The McGee Creek Authority was established back in 
1978. It is financed, operated, and maintained as a purpose to 
keep up the reservoir, dam, and water pipeline, as well as the 
pumping station.
    The McGee Creek Reservoir provides many Oklahomans with, 
first and foremost, a dependable water supply, and in addition, 
a number of recreational opportunities.
    The McGee Creek Authority and I represent--or, actually, 
request that the U.S. Senate Subcommittee on Water and Power 
consider and ultimately approve S. 177/H.R. 2085, the McGee 
Creek Project Pipeline and Associate Facilities Conveyance Act, 
which will allow transfer of certain facilities and properties 
from the Bureau of Reclamation to the McGee Creek Authority--
namely, the water pipeline and pumping facilities, headquarters 
office, pole barn, storage building, surge tank, control and 
relay stations, and associated land that they reside in and on.
    The McGee Creek Reservoir and associated water pipeline, 
pumping facilities, and properties, where built in conjunction 
with the Bureau of Reclamation. The McGee Creek Authority 
operates and maintains the reservoir and associated water 
pipeline and pumping facilities, and is obligated to pay the 
annual operational and maintenance costs and for its debt.
    In 1992, the McGee Creek Authority paid to the Bureau of 
Reclamation $88.6 million to fully repay the Federal Government 
for its cost of constructing the McGee Creek water supply 
related facilities. At the time the McGee Creek Authority 
repaid the costs of the water supply facilities, Federal policy 
required all facilities built for the Bureau of Reclamation 
remain the property of the Federal Government.
    The McGee Creek Authority began pursuing the property 
transfer proposed in S. 177/H.R. 2085 when we became fully 
aware that the Federal law allowed it--and, I might add, 
started to encourage it. The McGee Creek Authority, in 
conjunction with Bureau of Reclamation, is requesting that 
Congress authorize the transfer of certain facilities, 
including the McGee Creek water pipeline and pumping facilities 
and associated facilities and property.
    Specifically, the pole barn, storage building, and office 
structures, and the 13.35 acres on which they are located; the 
pumping plant and maintenance shop, and the 10.25 acres on 
which they are located; 12 miles of 72-inch raw water pipeline, 
and associated easements for this pipeline from the McGee Creek 
Pumping Plant to the rate-of-flow control station at Lake 
Atoka; five miles of 66-inch raw water pipeline, and associated 
easements downstream of the rate-of-flow control station to the 
rate-of-flow station at Atoka Lake; the rate-of-flow station at 
Atoka Lake, and the associated easement; surge tank connected 
to the pipeline, and the connecting pipeline as an associated 
easement; and all other water supply control structures in 
related facilities with associated easements.
    The McGee Creek Reservoir itself is not included in this 
transfer. The beneficiaries of the McGee Creek Authority, 
including the city of Oklahoma City, only hold the right to 
store water and use the water supply contained within the McGee 
Creek Reservoir. The mineral rights of the lake and the 
reservation are specifically excluded from this transfer. There 
will be no impact on oil and gas interests under the purposed 
legislation.
    We believe the requested transfer of these specific McGee 
Creek water facilities and properties will have no adverse 
affect on the Federal Government's involvement with or control 
of the McGee Creek Reservoir. The McGee Creek Authority already 
pays all maintenance and operating costs associated with these 
reservoir facilities. The transfer would vest ownership in 
these facilities and associated properties in the McGee Creek 
Authority, and thereby facilitate the ability of the Authority 
to finance future operation, maintenance, and replacement of 
these facilities, particularly, the large, aging capital 
structures.
    The transfer would lessen the Bureau of Reclamation's 
responsibility to provide administrative review of the McGee 
Creek Authority's ongoing operations and maintenance functions 
for these facilities. Going forward, the McGee Creek Authority 
will continue to provide the same quality services as we have 
provided in the years past. The McGee Creek Authority believes 
the transfer of the mentioned facilities and property is in the 
best interest of all parties--the Federal Government, the 
residents of Oklahoma, and the businesses and beneficiaries of 
the McGee Creek Authority. That includes the cities of Oklahoma 
City, the city of Atoka, as well as the county of Atoka.
    On behalf of the McGee Creek Authority and myself, I hereby 
duly request your review of the attached supportive documents, 
and ultimately, I ask for Senate approval of S. 177/H.R. 2085, 
transferring those McGee Creek facilities and associated 
properties to the McGee Creek Authority.
    Mr. Chairman, this concludes my statements. I stand ready 
to answer any questions that you might have on this issue.
    [The prepared statement of Mr. Cornett follows:]
Prepared Statement of Mick Cornett, Mayor, Oklahoma City, OK, on S. 177 
                             and H.R. 2085
    Chairman Johnson and members of the Subcommittee, thank you for the 
opportunity to appear before you today. My name is Mick Cornett, Mayor 
of Oklahoma City, and I am here to present the views of the McGee Creek 
Authority on S.177/H.R. 2085, McGee Creek Project Pipeline and 
Associated Facilities Conveyance Act. This act will transfer certain 
McGee Creek properties and associated facilities from the Bureau of 
Reclamation to the McGee Creek Authority.
    The McGee Creek Authority is a public trust of the State of 
Oklahoma to which the City of Oklahoma City, the City of Atoka and the 
County of Atoka are beneficiaries. All three entities benefit from the 
water rights they hold in the McGee Creek Reservoir in southeastern 
Oklahoma.
    The McGee Creek Authority was established in 1978 to finance, 
operate and maintain the reservoir, dam and water pipeline and pumping 
stations. The McGee Creek Reservoir provides many Oklahomans with, 
first and foremost, a dependable water supply and, in addition, a 
myriad of recreational opportunities.
    The McGee Creek Authority and I request that the U.S. Senate, 
Subcommittee on Water and Power, consider and ultimately approve S.177/
H.R. 2085, the McGee Creek Project Pipeline and Associated Facilities 
Conveyance Act, which will allow transfer of certain facilities and 
properties from the Bureau of Reclamation to the McGee Creek Authority, 
namely the water pipeline and pumping facilities, headquarters office, 
pole barn, storage building, surge tank, control and relay stations and 
associated land that they reside in and on.
    The McGee Creek Reservoir and associated water pipeline, pumping 
facilities and properties, were built in conjunction with the Bureau of 
Reclamation. The McGee Creek Authority operates and maintains the 
reservoir and associated water pipeline and pumping facilities and is 
obligated to pay the annual operational and maintenance costs and for 
its debt. In 1992, the McGee Creek Authority paid to the Bureau of 
Reclamation $88.6 million to fully repay the federal government for its 
cost of constructing the McGee Creek water supply related facilities. 
At the time the McGee Creek Authority repaid the cost of the water 
supply facilities, federal policy required all facilities built through 
the Bureau of Reclamation remained the property of the federal 
government. The McGee Creek Authority began pursuing the property 
transfer proposed in S.177/HR 2085 when we became aware federal law 
allows it.
    The McGee Creek Authority in conjunction with the Bureau of 
Reclamation is requesting that Congress authorize the transfer of 
certain facilities, including the McGee Creek water pipeline and 
pumping facilities and associated facilities and property, 
specifically:

  <bullet> The pole barn, storage building and office structures and 
        the 13.35 acres on which they are located.
  <bullet> The pumping plant and maintenance shop and the 10.25 acres 
        on which they are located.
  <bullet> 12 miles of 72-inch raw-water pipeline and associated 
        easements for this pipeline from the McGee Creek pumping plant 
        to the rate-of-flow control station at Lake Atoka.
  <bullet> Five miles of 66-inch raw-water pipeline and associated 
        easements, downstream of the rate-of-flow control station to 
        the rate-of flow station at Atoka Lake.
  <bullet> The rate-of-flow station at Atoka Lake and an associated 
        easement.
  <bullet> Surge tank connected to the pipeline and the connecting 
        pipeline and an associated easement.
  <bullet> And all other water supply-control structures and related 
        facilities with associated easements.

    The McGee Creek Reservoir itself is not included in the transfer. 
The beneficiaries of the McGee Creek Authority, including the City of 
Oklahoma City, only hold the right to store water and use the water 
supply contained within the McGee Creek Reservoir. The mineral rights 
in the lake and reservation are specifically excluded from the 
transfer. There will be no impact on oil and gas interests under the 
proposed legislation.
    We believe the requested transfer of these specific McGee Creek 
water facilities and properties will have no adverse affect on the 
federal government's involvement with or control of the McGee Creek 
Reservoir. The McGee Creek Authority already pays all maintenance and 
operating costs associated with these reservoir facilities. The 
transfer would vest ownership in these facilities and associated 
properties in the McGee Creek Authority and thereby facilitate the 
ability of the McGee Creek Authority to finance future operation, 
maintenance and replacement of these facilities, particularly the large 
aging capital structures. The transfer would lessen the Bureau of 
Reclamation's responsibility to provide administrative review of the 
McGee Creek Authority's ongoing operations and maintenance functions 
for these facilities. Going forward, the McGee Creek Authority will 
continue providing the same quality services as in years past.
    The McGee Creek Authority believes the transfer of the mentioned 
facilities and property is in the best interest of all parties--the 
federal government, Oklahoma residents and businesses, and the 
beneficiaries of the McGee Creek Authority, which include the cities of 
Oklahoma City and Atoka and the County of Atoka.
    On behalf of the McGee Creek Authority and myself, I hereby duly 
request your review of the attached supportive documents and, 
ultimately, Senate approval of S.177/H.R. 2085 transferring these McGee 
Creek facilities and associated properties to the McGee Creek 
Authority.
    Mr. Chairman, that concludes my statement. Thank you for the 
opportunity to present the views of the McGee Creek Authority. I would 
be pleased to answer any questions that you or other members of the 
subcommittee may have.

    Senator Johnson. Thank you, Mayor Cornett. Next is Mr. 
Janzen.

STATEMENT OF CARL JANZEN, PRESIDENT, BOARD OF MADERA IRRIGATION 
                      DISTRICT, MADERA, CA

    Mr. Janzen. Senator Johnson, my name is Carl Janzen. I am a 
third-generation farmer and President of the Madera Irrigation 
District, which I will refer to as MID in the rest of my 
testimony. I thank you for inviting me to provide testimony on 
Senate 1473. This is the companion of a bill which has already 
been passed by the House of Representatives, H.R. 1855, that 
George Radanovich has already spoke about. We thank him also. 
Mrs. Senator Feinstein is carrying this bill, and we thank her.
    MID was established in 1920 by the farmers of Madera County 
to bring surface water to the farmers in Madera County and MID, 
which later was divided into two water districts. In the past 
years, we have bought the Madera Ranch Project to use as water 
banking. It is part of our plan to stop the overdraft of the 
water in our district.
    We are overdrafting now at the rate of 40,000 acre feet a 
year. In 1912, when my grandfather came to the area, he dug 20 
feet to water for his family. My sons and I, last year, dug 165 
feet to get to water. That is what is happening in our 
district.
    The additional storage that we can gain through the use of 
the water bank at the Madera Ranch of 13,600 acres is 
approximately 250,000 acres of storage, 55,000 acres of water, 
either in or out, on any given year. We have set that up for 
use of the farmers, for developers in the county, for 
environmental uses, the Bureau, and the State Fish and Game. 
There is some use for each of those in this water bank.
    It is located in the southwestern part of Madera County and 
the Bureau, in the 1990s, did a study--looked at purchasing 
this for a water bank owned by the Bureau. For other reasons, 
they did not proceed. Private industry and our district looked 
at it. We have ended up buying it and are proceeding to try to 
bring it to fruition.
    This water bank has had many studies done on it--19, in 
fact, that I know of--at a total cost of about $8 million on 
each of these studies. That is why we ask in this bill that 
there not be any further studies done on it, that we go ahead 
and do the job, instead of keep studying it to death.
    The appraisal report that the Bureau did last year on it 
gave it a go-ahead. The Bureau also awarded us a 2025 Water 
Grant of $297,000 to work on it. They have approved a pilot 
program on the ranch that we're now into. All we need is a wet 
year so that we can have extra water to put it in there.
    So, it brings me to the final point, I think, of discussion 
on this water bank. Before you is--in your Committee for 
discussion in the future--Senator Feinstein's San Joaquin River 
Restoration Project. This water bank is just six miles from the 
San Joaquin River at Gravelly Ford.
    We looked at it, and as late as Tuesday I was at the 
Bureau's office in Sacramento, discussing with them how they 
could be involved in this water bank. We have room set aside in 
the water bank for the Bureau of Reclamation to use for 
environmental needs. We see that--and the Bureau, I think, is 
coming to see that--that if the restoration bill goes through, 
it will be a part of their work of fulfilling the restoration 
program and the water that they need by dedications in the bill 
to have set aside for uses in dry years.
    In the Fish and Game from California, the Department is 
looking at it, and also maybe wants to use it. So, that in a 
nutshell is what this project's for. It's to help, not just the 
water district, but it's to help our whole county and the 
environment in California.
    I thank you for your attention. I hope the Senate will be 
able to pass this bill. I thank both Senator Feinstein and 
George Radanovich in the House, for their efforts they have put 
into it.
    [The prepared statement of Mr. Janzen follows:]
     Prepared Statement of Carl Janzen, President, Board of Madera 
                    Irrigation District, Madera, CA
    Mr. Chairman and members of the Water and Power Subcommittee, My 
name is Carl Janzen. I am a third generation farmer and President of 
the Board of the Madera Irrigation District, which I will refer to in 
my testimony as ``MID''. Thank you for inviting me to provide testimony 
on S. 1473, a bill that authorizes critical federal funds to be 
directed to the Madera Irrigation District's Water Supply Enhancement 
Project in Madera, California. We are extremely grateful to Senator 
Feinstein for introducing this legislation and for her leadership on 
water issues in California. As you may know, the House of 
Representatives has already unanimously passed the companion bill, H.R. 
1855. The House also passed this legislation in 2006, and I cannot 
stress enough how critical it is to Madera and the Central Valley of 
California that the Senate complete final action on this legislation 
this year.
    MID was established in 1920 to supply surface water to farmers in 
its service area. Madera farmers are some of the most productive in 
California's San Joaquin Valley, among the most productive agricultural 
regions in the world. Every year we produce over one billion dollars in 
almonds, grapes, milk and other agricultural products for consumers in 
the United States and around the globe. But unlike many other 
agricultural areas in California, most of Madera's farms are still 
owned and operated by families like my own. Madera's agricultural 
economy is the backbone of our region and we're very proud of it.
    Water, of course, is the fuel that runs our region's economic 
engine. To obtain the water we need, farmers within MID use a 
combination of groundwater pumped from beneath our land and surface 
water delivered to us by MID. The need to pump groundwater varies in 
response to weather conditions and the availability of surface water, 
with an increase in pumping required in dry years when there is a 
limited supply of surface water.
    Over the years, the amount of groundwater pumped has exceeded the 
amount of water recharging the aquifer, resulting in what scientists 
call groundwater overdraft. Even in wet years, the groundwater is in 
overdraft because of pumping in dry years and increased pumping for 
municipal and industrial purposes. This overdraft has caused the water 
table to decline and groundwater quality to degrade. In addition, 
because we have to reach further underground for our water, it is 
becoming more and more expensive to pump to the surface.
    MID's efforts to reduce the need for groundwater by establishing a 
supply of surface water began in the 1930s, when our forefathers 
already knew that we needed a stable and reliable source of surface 
water. Their foresight led to the sale of MID's property on the San 
Joaquin river to the Bureau of Reclamation for the construction of the 
Friant Dam. Like other dams, the Friant Dam was designed for flood 
control and, most importantly, to store water for agricultural use. The 
storage provided by the dam is one of the cornerstones of our water 
supply system and is essential to the vitality of our economy.
    But while storage in the Friant has reduced our reliance on 
groundwater pumping, Madera's aquifer is still in overdraft at the rate 
of 100,000 acre feet a year. In 1912, when my Grandfather dug the first 
well on our farm, he had to drill just twenty feet before finding water 
to sustain our family business. Recently, my son and I had to drill 165 
feet in the same area. And my family is one of the lucky ones. Some 
farmers are drilling seven-or eight-hundred feet down to get water, if 
they can find any at all.
    The need for additional storage to reduce the rate of groundwater 
overdraft and stabilize supply is why MID is pursuing the Water Supply 
Enhancement Project. Like the Friant Dam, MID's project is key to our 
water security and the continued health of our region's economy and 
communities. But unlike the Friant Dam, our Project provides storage of 
water underground. It is what we in the west call a ``water bank'': an 
underground storage facility designed to store our water for use during 
dry years.
    MID has been working for years to realize its vision of an 
underground storage facility to serve the needs of the community. We 
have talked to our farmers and other members of our community so we 
understand exactly how to develop and operate the Project to meet our 
needs. Over the last several years, MID has held dozens of public 
meetings in Madera County alone and has received many letters of 
enthusiastic support from local, state and federal elected officials, 
as well as organizations, agencies, and individuals. As a result of our 
outreach efforts, support for the Water Supply Enhancement Project has 
been overwhelming.
    Having achieved the necessary public support, it is essential that 
this support be maintained. One of the key components of the Project's 
administration is the Oversight Monitoring Committee, which MID 
established in 2005. Members of the Committee include community leaders 
and neighboring property owners who provide a watchful public eye on 
the Project's development and operation. Among many other 
responsibilities, the Committee is charged with protecting neighboring 
landowners from potential impacts from the Project, and is vital to 
ensuring that the Project is responsive to the concerns of local 
landowners and the community.
    MID has invested $37.5 million to purchase approximately 13,648 
acres known as the ``Madera Ranch'', land ideally suited for the Water 
Supply Enhancement Project. As designed by MID, the facility has the 
ability to store 250,000 acre feet of water, about half of what the 
Friant Dam can store. The Project could move 55,000 acre feet into or 
out of storage each year, enough to provide the 147,000 acres in MID 
with reliable sources during dry years. A key element of our Project is 
to always leave behind ten percent of the water banked, thus reducing 
the rate of groundwater overdraft.
    While this would be the first underground water storage facility in 
Madera, there are many examples of successful water banks in 
California. The Project is based on proven methods and the latest in 
sustainable water management practices. We have learned from the 
experiences of the pioneers in this area and are committed to serving 
our community with one of California's best examples of underground 
banking facilities.
    Located in Southwestern Madera County, the Madera Ranch has 
historically been used for row crops, orchards, vineyards, and 
livestock grazing. Owned for generations by the Pope family, most of 
the Madera Ranch has never been farmed. The land contains valuable 
habitat and some of the Central Valley's last remaining large sections 
of native grasslands. Most importantly for the purposes of the water 
storage facility, the soils on and underneath the land are ideal for 
percolating water from the surface down to the aquifer. In fact, large 
pools of water literally disappear overnight, quickly percolating down 
to the overdrafted aquifer below.
    We have watched others attempt to build water banks in Madera and 
fail because they were motivated more by the goals of out-of-state 
business interests than by local needs and priorities. In the mid-
1990s, the Bureau of Reclamation tried to buy the Madera Ranch and 
build its own water bank. As part of this effort, the Bureau conducted 
extensive studies regarding the feasibility of building such a bank. 
When the Bureau abandoned the effort because of other reasons, MID and 
other private parties continued to explore the possibility of building 
a water bank on the Madera Ranch property. Not counting the Bureau's 
own in-house efforts and studies, over $8 million has been spent on 
studies relating to this project by MID and private parties.
    This long history of studying the possibility of a water bank is 
the reason why S. 1473 contains an unusual feature: it declares the 
project feasible and states that no further studies are necessary. We 
have submitted for the record a list of the 18 studies that have been 
conducted since the 1990s regarding the water bank, including the 
Bureau's most recent appraisal study which found that ``the Madera 
Ranch Groundwater Bank is a project that has been investigated for 
approximately ten years for its potential to improve water supply 
reliability and reduce groundwater overdraft conditions.'' The Madera 
water bank has been studied more extensively than perhaps any other 
potential Bureau-supported project and the unanimous view of these 
studies is that this project should be built as soon as possible.
    There is another reason why it is so urgent to build the water 
bank. This committee is currently considering Senator Feinstein's 
legislation to implement the provisions of the San Joaquin River 
Restoration settlement. The settlement, which MID supports, will place 
additional strain on the water supply available to Central Valley 
farmers. Already, there is a 100,000 acre-feet per year overdraft in 
Madera County. For MID alone the overdraft is 40,000 acre-feet. When 
the settlement is implemented, MID's water supply from the Friant 
Division, already inadequate, would be reduced by as much as 20 percent 
on an annual average basis.
    The San Joaquin River Restoration settlement provides not just for 
restoration but for water management goals, including taking steps ``to 
reduce or avoid the impacts to all Friant Division long-term 
contractors caused by the Restoration flows (including, for example, 
expanded groundwater banking).'' Although the MID water bank is not 
technically part of the settlement, it is just 6 miles from the San 
Joaquin River at Gravelly Ford. Recognizing this interrelationship, the 
MID Board has discussed with the Bureau setting aside capacity in the 
Project for environmental purposes that could help fulfill goals of the 
San Joaquin Restoration.
    Two and one-half years ago I appeared before the Water and Power 
Subcommittee of the House Committee on Resources to testify on an 
earlier draft of the legislation. Since that time, MID has completed 
the state environmental review process and expects to issue a final EIS 
and complete the federal NEPA process by this fall. We are working 
cooperatively with Madera County to ensure that the Project plays a 
central role in the region's integrated regional water supply and 
management planning. The Bureau of Reclamation has approved a three-
year pilot program to bank San Joaquin River water at Madera Ranch and 
awarded MID $297,000 for the Project under its Water 2025 Challenge 
Grant program.
    The next step is to finance and build the water bank. Building the 
Project requires the improvement of existing water conveyance systems 
and canals on the Ranch to deliver water to recharge areas in natural 
swales and low spots in the native grazing land. It also requires the 
placement of new wells to pump water out of storage when needed. MID 
estimates that the total cost of the water bank will be approximately 
$90 million. S. 1473 specifically caps the cost of the Bank at $90 
million for purposes of calculating the federal contribution to the 
project. Although the bulk of the project's financing will come from 
state and local sources, the federal funds authorized by S. 1473 are 
critical to MID's ongoing efforts to balance the water needs of MID 
users with the Water Bank.
    MID is also exploring ways to set aside and protect the Madera 
Ranch's native grasslands and habitat, which comprise the largest 
contiguous tract of upland habitat in the Central Valley. Of the 13,648 
acres, the Water Supply Enhancement Project will need about 10% of the 
land for percolation of water into groundwater storage. The extent to 
which MID can achieve its goal to protect the remaining almost 10,000 
acres of native, undeveloped land will depend, in part, upon the extent 
of public assistance we receive from the Project.
    Thank you again for the invitation to speak with you today about 
the MID Water Supply Enhancement Project. Enactment of the Madera Water 
Supply and Enhancement Project Act legislation is essential to timely 
completion of the Project and will help to ensure the continued flow of 
Madera's agricultural products across the nation and around the world. 
We urge the Subcommittee to give the legislation prompt and favorable 
consideration.

    Senator Johnson. Thank you Mr. Janzen. Next, Mr. Rossi.

  STATEMENT OF JOHN ROSSI, GENERAL MANAGER, WESTERN MUNICIPAL 
                 WATER DISTRICT, RIVERSIDE, CA

    Mr. Rossi. Mr. Chairman, thank you for inviting me today to 
testify on behalf of Senate 1474, the Riverside-Corona Feeder 
Water Supply Act. I am John Rossi, the General Manager of the 
Western Municipal Water District, project sponsor for the 
feeder.
    I know your time is limited, so I will summarize my 
comments, and I have submitted my written testimony to your 
staff.
    Western Municipal Water District provides wholesale retail 
water and wastewater services to over a 520-square-mile service 
area over a two-county, with a population of over 800,000 
people. Our region is expected to double, both in population 
and in demand for potable water by the year 2025.
    Designed to help us meet these demands for our ever-growing 
region, S. 1474 authorizes the planning, design, and 
construction of the feeder with a 25 percent Federal cost 
share. It contemplates that the Bureau of Reclamation will be 
the lead Federal agency partnering on the project. The feeder 
will provide one of California's fastest growing, but drought-
prone regions, with up to 40,000 acre feet a year of new 
drinking water by capturing and storing in wet years, in order 
to increase firm water supplies and improve water quality, 
especially in dry years.
    The project will include approximately 20 wells and 28 
miles of pipeline to convey the water throughout the region, to 
numerous cities and water districts. As we prepare for the 
future impacts of global climate change on our limited water 
supplies, this project will be even more important. Models now 
predict the climate change will produce less frequent, but more 
intense, rainstorm events and significantly faster snow melt.
    This will result in more lost water to the ocean as current 
water distribution and diversion systems in the State cannot 
capture enough of this higher peak runoff flow. Without 
projects like the feeder, our current drought, which is already 
of historic proportions, may seem like the good old days.
    The Federal nexus of this project, the current Reclamation 
projects, is clear and compelling. New, useable water supplies 
created by the feeder would replace imported water from the 
Colorado River and the California State Water Project sources 
in times of drought or other shortages. By better managing our 
precious imported water supplies, it supports the Secretary of 
Interior's role as Water Master of the Lower Colorado River.
    We believe constructing the feeder is crucial to the State 
of California's efforts to implement the Quantification 
Settlement Agreement, referred to as the QSA, a key foundation 
for a future Lower Colorado River management by the Secretary. 
Further projects like the feeder will integrate to the 
implementation of the new Seven States Agreement in the 
Colorado River Basin.
    We're all very pleased in Southern California that this 
accord has been signed. It's now time to build projects that 
will help address shortages on the river and help augment the 
rise of water storage levels in both Lake Powell and Lake Mead.
    The water supplies imported by the State project are now 
negatively impacted by the recent Federal court ruling on the 
delta smelt. In our region, we have acute need to find new 
resources of water, because portions of our service area are 
100 percent reliant upon imported State water project supplies.
    Fortunately, with Federal authorization for this project, 
the district can step into quickly minimizing the damage caused 
by these shortages that will hit Southern California as a 
result of a delta smelt decision.
    Detailed feasibility studies and environmental reports have 
been prepared. The District is working diligently to continue 
implementation efforts for the feeder. We will continue to work 
closely with the Reclamation's Temecula area office to 
coordinate engineering and environmental work necessary to 
complete the project.
    Finally, the project has been vetted, studied, and will 
create new water, improve groundwater quality, and reduce, 
again, our reliance on Colorado River and State Water Project 
supplies.
    We look forward to continuing to strengthen our 
relationship with Reclamation or design and build this crucial 
water supply project. I certainly want to thank Senator 
Feinstein and Congressman Calvert, as well as yourself, for the 
assistance today. Thank you.
    [The prepared statement of Mr. Rossi follows:]
 Prepared Statement of John Rossi, General Manager, Western Municipal 
                     Water District, Riverside, CA
    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me to testify today in support of S. 1474, the ``Riverside-Corona 
Feeder Water Supply Act.'' I am John Rossi, General Manager of Western 
Municipal Water District, project sponsor of the Riverside-Corona 
Feeder.
    Western Municipal Water District (District) is a regional wholesale 
water agency and a member of the Metropolitan Water District of 
Southern California. We provide wholesale and retail water and 
wastewater services to a 527 square mile service area with a population 
of over 800,000 people. Our region is expected to double in population, 
with a similar doubling of demand for imported water by 2025. Our 
region is also one of the fastest expanding economies in the nation.
    S. 1474 authorizes the planning, design, and construction of the 
Feeder with a 25% Federal cost share. S. 1474 contemplates that the 
Bureau of Reclamation (Reclamation) will be the lead Federal agency 
partnering on the project.
    The Riverside-Corona Feeder (Feeder) will provide one of 
California's fastest growing, but drought prone regions, with up to 
40,000 acre-feet a year of new drinking water by capturing and storing 
water in wet years in order to increase firm water supplies and improve 
water quality. The project will include approximately 20 wells and 28 
miles of pipeline to convey the water throughout the region to numerous 
cities and water districts.
    Let me put this project into perspective--if it was in place in 
2005, one of the wettest years on record in California, we could have 
stored about 35,000 AF of water. Instead, that water was lost to the 
ocean, and was not available to serve the region in the drought years 
that have followed.
    As we prepare for the future impacts of global climate change on 
our limited water supplies, this project will become even more 
important. Models for our region produced by the University of 
California predict that climate change will produce less-frequent, but 
more intense rain storm events. Additionally, these projections detail 
significantly faster snow melt. This will result in more water lost to 
the ocean as current water diversion systems in the state cannot 
capture these higher peak run off flows. Without projects like the 
Feeder, our region stands to face ever-worsening droughts and we will 
simply have to continue to watch our only local fresh surface water 
supply continue to run into the ocean. It will make our current 
drought, which is already of historic proportions, seem like the good 
old days.
    Recognizing the importance of the Feeder, The California State 
Water Resources Control Board awarded the project $4.9 million from 
Proposition 50 competitive grant funds. And because they understand 
that the project is integral to regional water planning, the Feeder is 
supported by water agencies upstream in San Bernardino County and 
downstream in Orange County. This bill is also supported by and fully 
consistent with the Metropolitan Water District of Southern 
California's Integrated Resource Plan, the Santa Ana Watershed Project 
Authority's Integrated Watershed Plan, the San Bernardino Valley 
Municipal Water District's Integrated Resource Plan, and the water 
management plans for the cities of Riverside, Norco and Corona as well 
as the Elsinore Valley Municipal Water District.
    The federal nexus of this project to current Reclamation projects 
is clear and compelling. New usable water supplies created by the 
Feeder would replace imported water from Colorado River and the 
California State Water Project sources in times of drought or other 
shortages.
    By better managing our precious imported water supplies, it 
supports the Secretary of the Interior's role as Watermaster of the 
Lower Colorado River. We believe constructing the Feeder is crucial to 
the State of California's effort to implement the Quantification 
Settlement Agreement (QSA), a key foundation for future Lower Colorado 
River management by the Secretary. Also, projects such as the Feeder 
can be a far more effective means to QSA implementation than relying on 
agricultural transfers as a long-term supplemental water supply.
    Further, projects like the Feeder will be integral to the 
implementation of the new ``Seven States Agreement'' in the Colorado 
River Basin. We are all very pleased that this accord has been signed. 
It is now time to build projects which help address shortages on the 
Colorado River and help to augment the rise of water storage levels in 
both Lake Powell and Lake Mead under the newly minted Colorado River 
Basin reservoir management criteria approved by the seven states and 
adopted by Interior.
    The water supplies imported by the State Water Project are now 
negatively impacted by the recent federal court ruling on the Delta 
smelt. Water interests across the state can no longer rely on 
``business as usual'' water supplies from the Delta, and need to find 
and develop new local sources of water that are more reliable than 
imported water.
    In our region, we have an acute need to find these new sources 
because portions of the District's service area are 100 percent reliant 
upon imported state water supplies. Fortunately, our District is well 
along that path with the Feeder and, with federal authorization for the 
project, we can step in quickly to minimize the damage caused by 
shortages that will hit southern California as a result of the Delta 
smelt decision.
    Finally, there are very important environmental remediation 
benefits of the Feeder project. Up to half of the project's wells could 
be placed within plumes of volatile organic compounds (VOC's) and 
perchlorate which have polluted groundwater basins in the District 
through the prior industrial and agricultural uses in the region. Much 
of the perchlorate in the groundwater is the result of Department of 
Defense munitions manufacturing. These new Feeder injection wells could 
annually remediate up to 20,000 acre-feet of currently contaminated 
water per year.
    Detailed Feasibility Studies and environmental reports have been 
prepared and approved by District personnel and contracted professional 
engineers, and have been certified by the State of California. The 
District is working diligently to continue implementation efforts for 
the Feeder. We will continue to work closely with the Reclamation's 
Temecula area office to coordinate engineering and environmental work 
necessary to complete the project.
    To conclude, the Feeder is a project that has been vetted and 
studied and will create new water, improve groundwater quality, and 
reduce our reliance on the Colorado River and the State Water Project. 
We look forward to continuing and strengthening our relationship with 
Reclamation in order to design and build this crucial water supply 
project. Thank you, Mr. Chairman, and I would answer any questions you 
or the Committee may have at this time.

    Senator Johnson. Thank you, Mr. Rossi. Mr. Potucek, 
proceed.

          STATEMENT OF CHARLES POTUCEK, CITY MANAGER, 
                        SIERRA VISTA, AZ

    Mr. Potucek. Thank you, Mr. Chairman, for allowing me to 
speak today on Senate 1929, the Sierra Vista Subwatershed 
Feasibility Study Act. Let me start by extending the regrets of 
Mayor Bob Strain, of the city of Sierra Vista, Arizona, and 
chair of the Upper San Pedro Partnership, for not being able to 
attend today's hearing. I want to thank Senator Kyl for 
sponsoring of this bill on our behalf.
    My name is Charles Potucek, and I serve as the city manager 
for the city of Sierra Vista, Arizona, a city of 44,000 people, 
located in Cochise County in Southeastern Arizona, and home to 
the Fort Huachuca Military Installation.
    Today, I am representing the Upper San Pedro Partnership, a 
consortium of 21 Federal, State, and local governmental 
agencies, nongovernmental organizations, and private companies. 
The partnership strives to ensure that we meet the long-term 
groundwater needs of both the residents of the Sierra Vista 
Subwatershed, as well as the Upper San Pedro River. The city of 
Sierra Vista serves as a fiscal agent for the partnership, and 
facilitates many Federal agreements through this mechanism on 
behalf of the partnership.
    Congress formally recognized the partnership through Public 
Law 108-136, Section 321, in 2003 and requires us to report on 
its progress to Congress on an annual basis. As a testimony to 
its efforts, we recently learned that the partnership is the 
recipient of the U.S. Department of Interiors Cooperative 
Conservation Award, and Mayor Strain will accept that award, 
here, on April 21.
    The Sierra Vista Subwatershed contains two important 
Federal treasures--Fort Huachuca, administrated by the 
Department of Defense, and the San Pedro Riparian National 
Conservation area, designated by Congress in 1988 and 
administered by the Department of the Interior, Bureau of Land 
Management.
    Fort Huachuca houses the United States Army Intelligence 
Center, the U.S. Army Network Enterprise Technology Command, 
9th Signal Command, the U.S. Army Information Systems 
Engineering Command, the Joint Interoperability Test Command, 
the Electronic Proving Ground, the Intelligence and Electronic 
Warfare Testing Directorate, and the U.S. Army Communications 
Electronics Command Communications Security Logistics Activity.
    The San Pedro Riparian National Conservation area supports 
approximately 400 avian species, 81 mammalian species, 43 
species of reptiles and amphibians, and serves as a primary 
migratory bird corridor.
    Also, of extreme importance, this conservation area 
provides critical habitat to the endangered Huachuca water 
umbel, requiring Fort Huachuca to seek a biological opinion 
from the United States Fish and Wildlife Service, pursuant to 
section 7 of the Endangered Species Act of 1973. In June 2007, 
that biological opinion was completed.
    Protection of that critical habitat by Fort Huachuca, as 
published in the biological opinion, will ensure that Fort 
Huachuca can continue to perform its critical missions without 
jeopardizing the endangered species found in the conservation 
area.
    The partnership established three fundamental strategies in 
order to achieve its goal. The strategies include conservation, 
reclaiming effluent, and augmenting existing water resources 
through improved rainfall harvesting and the importation of 
addition ones.
    Senate 1929 speaks to the third strategy and allows the 
partnership to proceed to the second phase of the augmentation 
project. The Bureau performed a required appraisal report in 
June 2007, completing the first phase of the process.
    The partnership values the Bureau's contributions. In fact, 
the Bureau provided $1.5 million through a cooperative 
agreement with the city of Sierra Vista toward construction of 
Sierra Vista's Environmental Operations Park that began 
operations in 2001. The Environment Operations Park recharges 
high-quality, treated effluent into the ground in order to 
protect the conservation area from the effects of groundwater 
pumping from the more densely populated areas of the 
subwatershed. It remains the single and most effective water 
reclamation project in the subwatershed, recharging more than 
2,000 acre feet of water annually.
    The appraisal report identified three basic alternatives 
for further analysis in the proposed feasibility study. These 
include recharging urban storm water runoff, extracting excess 
water flooding the Copper Queen Mine to the West in Bisbee, 
Arizona, and recharging that water near the conservation area 
and extending Central Arizona Project water to the Sierra Vista 
subwatershed.
    The partnership anticipates that the feasibility study will 
identify the best alternative to pursue future construction and 
implementation. The Partnership stands ready to assist its 
Federal partners via technical and scientific expertise and 
matching in-kind in financial resources in order to perform 
this feasibility study, helping us to preserve and protect 
these two vital, federally owned treasurers.
    I thank you, Mr. Chairman, for the opportunity to address 
you today. Thank you, Senator Kyl, for preparing this bill on 
our behalf. I am prepared to answer your questions at this 
time.
    [The prepared statement of Mr. Potucek follows:]
 Prepared Statement of Charles Potucek, City Manager, Sierra Vista, AZ
    The Honorable Chairman and Distinguished Members of the 
Subcommittee: My name is Charles Potucek and I serve as the city 
manager for the City of Sierra Vista, Arizona, a city of 44,000 located 
in Cochise County in Southeastern Arizona and home to the Fort Huachuca 
Military Installation.
    Today I am representing the Upper San Pedro Partnership (USPP), a 
consortium of 21 federal, state and local governmental entities, non-
governmental organizations and private companies. The USPP strives to 
ensure that we meet the long-term groundwater needs of both the 
residents of the Sierra Vista Sub-watershed as well as the Upper San 
Pedro River.
    Congress formally recognized the USPP through Public Law 108-136, 
Section 321 in 2003 and requires us to report its progress to them on 
an annual basis. (Attachment A)*
---------------------------------------------------------------------------
    *Attachment A can be found at www.usppartnership.com/docs/
Sec3212006Rept907Hill(2).pdf.

     Attachment B can be found at http://www.fws.gov/southwest/es/
arizona/Documents/Biol_Opin/070132_FortHuachucaFINAL.pdf.

     Attachment C can be found at http://www.usbr.gov/lc/phoenix/
reports/sierravista/Finalnoapps.pdf.
---------------------------------------------------------------------------
    We recently learned that USPP is the recipient of the U.S. 
Department of the Interior's Cooperative Conservation Award.
    The Sierra Vista Subwatershed contains two important federal 
treasures--Fort Huachuca, administered by the Department of Defense 
(DoD) and the San Pedro Riparian National Conservation Area (SPRNCA), 
designated by Congress in 1988 (Public Law 100-696) and administered by 
the Department of the Interior (DoI), Bureau of Land Management.
    Fort Huachuca houses the U.S. Army Intelligence Center, the U.S. 
Army Network Enterprise Technology Command/ 9th Army Signal Command, 
the U.S. Army Information Systems Engineering Command, the Joint 
Interoperability Test Command, the Electronic Providing Ground, the 
Intelligence and Electronic Warfare Testing Directorate, and the U.S. 
Army Communications Electronics Command Communications Security 
Logistics Activity.
    The SPRNCA supports approximately four hundred avian species, 81 
mammalian species, 43 species of reptiles and amphibians, and serves as 
primary migratory bird corridor. Also of extreme importance, the SPRNCA 
provides critical habitat to the endangered Huachuca water umbel 
requiring Fort Huachuca to seek a biological opinion (BO) from the U.S. 
Fish and Wildlife Service pursuant to Section 7 of the Endangered 
Species Act of 1973 in June of 2007 (Attachment B).* Protection of that 
critical habitat by Fort Huachuca as published in the BO will ensure 
that Fort Huachuca can continue to perform its critical missions 
without jeopardizing the endangered species found in the SPRNCA.
    The USPP established three fundamental strategies in order to 
achieve its goal. The strategies include reducing consumption 
(conservation), reclaiming effluent and reusing or recharging it, and 
augmenting existing water resources through improved rainfall 
harvesting and the importation of additional ones.
    The Sierra Vista Sub-watershed Feasibility Study Act (S.1929) 
speaks to the third strategy and allows the USPP to proceed to the 
second phase of the augmentation project. The DoI's Bureau of 
Reclamation (BOR) performed a required appraisal report titled 
``Augmentation Alternatives for the Sierra Vista Sub-watershed, 
Arizona'' in June of 2007, completing the first phase of the process 
(Attachment C).*
    The USPP values BOR's contributions. In fact, BOR provided $1.5 
million through a cooperative agreement with the City of Sierra Vista 
towards the construction of Sierra Vista's Environmental Operations 
Park (EOP) that began operations in 2001. The EOP recharges high-
quality treated effluent into the ground in order to protect the SPRNCA 
from the effects of groundwater pumping from the more densely populated 
areas of the sub-watershed. It remains the largest single and most 
effective water reclamation project in the sub-watershed, recharging 
more than 2000 acre feet of water annually.
    The appraisal report identified three basic alternatives for 
further analysis in the proposed feasibility study. These include 
recharging urban storm-water runoff near the SPRNCA, extracting excess 
water flooding the Copper Queen Mine to the west near Bisbee, Arizona, 
and recharging the water near the SPRNCA, and extending the Central 
Arizona Project (CAP) water to the Sierra Vista Sub-watershed. The USPP 
anticipates that the feasibility study will identify the best 
alternative to pursue for future construction and implementation. The 
selected project will significantly contribute to the stated goals of 
the USPP.
    The USPP stands ready to assist its federal partners via technical 
and scientific expertise, and matching in-kind and financial resources 
in order to perform this feasibility study, helping us to preserve and 
protect these two vital federally owned treasures.
    I thank you, Mr. Chairman, and the distinguished members of the 
Subcommittee on Energy and Natural Resources for the opportunity to 
address you today and I am prepared to answer your questions at this 
time.

    Senator Johnson. Thank you, Mr. Potucek.
    For Mayor Cornett, your testimony talks about the need for 
maintaining and replacing aging facilities that are part of the 
McGee Creek Project.
    Mr. Cornett, I have a two-part question. What is the 
overall condition of the project, and does the BOR have any 
ongoing responsibilities to maintain or rehabilitate the 
facilities? Will the title transfer sought in the legislation 
result in any changed operations of the project?
    Mr. Cornett. There are some ongoing needs and capital 
projects that the trust will be paying for. The Federal 
Government will have no additional responsibilities. We see, 
really, no downside of the Federal Government, no additional 
responsibilities that they will have long-term.
    We are accepting and acknowledging that we have some 
capital projects to create. What we'd really to do is just try 
to get rid of some of the paperwork and the bureaucracy that's 
created by having to go through the Federal Government to get 
permission to work on these types of projects.
    Senator Johnson. Thank you, Mayor Cornett.
    Mr. Janzen, as you note in your testimony, the bill 
declares the project is feasible and authorizes Reclamation to 
assist with its design and construction. Based on the amount of 
studies and work you've referenced, is design of the project 
essentially complete and ready to proceed to the construction 
phase? If so, how long will it take to complete construction?
    Mr. Janzen. We are starting to deliver water there through 
our facilities. The biggest--but we have not started any 
construction on an extraction part of it. We can deliver water 
there at the present time. What will have to be constructed 
is--we're going to have to enlarge some of the canals bringing 
water to there, because it is at the end of our system, and the 
canals keep getting smaller as it gets there, because we were 
serving farmers upstream from there.
    So, as part of delivery and extraction, we will need to 
reconstruct some of the canals. In large dams, there will be 
pumps to pump it back upstream in these canals during 
extraction, so that we get the water back up into the district 
to where the farmers are, so that we can then let it run 
downhill through the canals to the farmers that we serve. We're 
ready to start that at this time.
    Senator Johnson. Yes. Thank you, Mr. Janzen.
    Mr. Rossi, the Riverside Corona Bill authorized a 25 
percent cost-share for the project, not to exceed $50 million, 
which means that the overall costs must be in the range of $200 
million. You note that the District has received $4.9 million 
from the State of California.
    How will the balance of the project be financed? What are 
the implications of this if this legislation is not enacted?
    Mr. Rossi. Mr. Chairman, the approximately $200 million 
project, was with $50 million of Federal shares, as you said. 
The remainder amount of that financing will come from local 
user financed water rates from a number of cities and water 
districts, we mentioned in the 525-square-mile area.
    Given the tremendous growth, a large portion of that, more 
than 50 percent, will come from the development of the homes 
through leader connection fees, as well.
    Senator Johnson. What are the implications of this 
legislation not being enacted?
    Mr. Rossi. It will make a very significant--make it very 
difficult for us to get the project going and moving forward, 
given the amount of--this project is dependent on growth over 
the next 20 or 30 years. So by getting the funding online, 
we'll be able to start moving with the project now. If not, we 
think the project will be delayed for a number of years.
    Senator Johnson. Thank you, Mr. Rossi. Mr. Potucek, your 
testimony identifies a threefold strategy for the watershed, 
which includes water conservation, reclaiming effluent, and 
supply augmentation.
    What has been accomplished in the region through water 
conservation activities? Is that the most cost-effective 
strategy? Is there more that can be done as part of the water 
conservation strategy?
    Mr. Potucek. Mr. Chairman, water conservation is a key 
component of all the strategies that we employ in the Sierra 
Vista Subwatershed. Primary examples of water conservation 
projects include, for example, the city of Sierra Vista's 
toilet rebate program, in which we rebate residents $100 for 
the replacement of old, large-flush toilets for water 
conservation-saving devices.
    Fort Huachuca, itself, has reduced groundwater pumping 
dramatically over the last 5 or 6 years. In Sierra Vista, 
itself, we've been able to stabilize and reduce our gallons per 
capita used per day by the residents there through a variety of 
strategies, to include rebates, to include water conservation 
ordinances, to include public education programs.
    So it's an ongoing effort. We have to use that plus our 
Reclamation strategy. I mentioned our Environmental Operations 
Park, which is a very significant contributor to our overall 
effort. But we also need water augmentation strategies, such as 
the ones I described in my testimony, because we need the 
combination of all three to be able to meet our goals under the 
biological opinion that Fort Huachuca is under.
    So we need all three strategies. Yes, water conservation is 
the most cost effective, but will not get us there by itself.
    Senator Johnson. I have no additional questions. Thanks to 
each of you for your willingness to travel here today and 
provide the subcommittee your views on the legislation before 
us.
    For the information of Senators and their staff, questions 
for the record are due by close of business tomorrow. With 
that, this hearing is adjourned.
    [Whereupon, at 2:55 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of the Department of the Interior to Questions From 
                            Senator Johnson
    Question 1. S. 1474 / H.R. 1139 - Has Reclamation reviewed studies 
prepared by the Western Municipal Water District related to the 
Riverside-Corona Feeder Project? If so, what additional work is 
necessary to provide the detail and analysis necessary for Reclamation 
to assess feasibility under its criteria?
    Answer. Reclamation, through its Southern California Area Office, 
has reviewed studies prepared by Western Municipal Water District 
(WMWD) on this and other projects. In the FY 2006 appropriation for the 
Southern California Investigations Program, Congress provided $100,000 
to assist with the general planning and environmental compliance for 
the Riverside-Corona Feeder Project. Reclamation has executed a 
contract to complete the requirements for compliance with the National 
Environmental Policy Act. This work has been held up due to changes in 
the pipeline alignment. Work will resume as soon as the alignment has 
been confirmed. Reclamation is working with the WMWD to define the best 
use of the FY 2008 funds.
    Question 2. S.1473/H.R. 1855 - At the hearing, Mr. Janzen 
represented that the Madera Water Supply Project would help address the 
water management goals sought as part of the San Joaquin settlement. 
Does Reclamation agree with that assessment? If so, where does the 
Madera Water Supply Project fall with respect to the priorities for 
water management options in the San Joaquin basin?
    Answer. Further analysis and coordination with the beneficiaries 
are needed before that determination can be made. It is important to 
note that all of the necessary background work has not been completed 
on this project. Therefore, in terms of priority, until we complete the 
feasibility level analysis of this project, we cannot fully assess its 
proper place in serving water users in the basin.
    Question 3a. S. 1929 - Reclamation has already completed an 
appraisal-level study on three basic water augmentation alternatives in 
the Sierra Vista watershed. Can you provide an estimated cost for each 
of the alternatives?
    Answer. In June 2007, Reclamation completed an appraisal study that 
identified 14 augmentation alternatives. The Upper San Pedro 
Partnership (USPP) selected three projects for further investigation. 
The three alternatives and the respective cost estimates are the 
following:

          (1) Bringing Central Arizona Project water to Sierra Vista

                  a. Cost estimates vary widely depending on the 
                specifics (quantity of water and treatment):

                          i. Capital costs - $158 million - $408 
                        million
                          ii. O&M costs - $16.21 million - $37.33 
                        million per year
                          iii. Total Annual Project Costs - $27.85 
                        million - $64.69 million

          (2) Capturing and recharging stormwater

                  a. Cost estimates:

                          i. Capital Costs - $51.73 to $61.16 million
                          ii. O&M Costs - $280,000 to $310,000 per year
                          iii. Total Annual Project Cost - $4.09 to 
                        $4.81 million

          (3) Reclamation and reuse of impaired mine water

                  a. This alternative was introduced late in the 
                process, so a cost estimate was not calculated. This 
                alternative is a middle ground between two other 
                related alternatives, so this estimate is based on the 
                averages of the costs associated with those 
                alternatives:

                          i. Capital Costs - $45 million
                          ii. O&M Costs - $1.33 million per year
                          iii. Total Annual Project Cost - $4.75 
                        million

    Question 3b. What does your testimony mean when it states that 
``[o]nly the CAP to Sierra Vista alternative completely addresses the 
Partnership's goal for augmentation''?
    Answer. In 2004, Section 321 of the National Defense Authorization 
Act formally recognized the USPP and directed it to prepare annual 
reports on progress toward the goal of ``sustainable yield'' by 
September 30, 2011. In order to reach this goal, projects must be 
identified to yield an estimated 11,000 acre-feet by 2011 and 26,000 
acre-feet per year by the year 2050. Of the alternatives, the CAP to 
Sierra Vista alternative is the only one that will achieve that goal. 
It should be noted, however, that the Partnership, which consists of 
representatives from Federal, state, and local governments and other 
stakeholders has no legal authority to construct, operate, and repay 
capital costs. Reclamation cannot legally contract with the 
partnership.
    Question 4a. S.2370 - Your testimony states that there has not been 
any excess-lands determination for the properties that are the subject 
of S. 2370, and that there has not been an appraisal of lands. Is 
Reclamation suggesting that it should be paid for disclaiming its 
interests in Tingley Beach or San Gabriel Park?
    Answer. The United States has not relinquished its interest in 
parcels specified in the legislation. On November 25, 1997, Middle Rio 
Grande Conservancy District (MRGCD) and the City of Albuquerque (City) 
entered into a real estate sales agreement through which the MRGCD sold 
the City approximately 65 acres of land associated with San Gabriel 
Park and Tingley Beach for $3,875,000.
    Reclamation's initial determination with regard to the properties 
identified was that they were excess to the Project needs. However, the 
determination of ``surplus'' to the United States is outside of 
Reclamation's jurisdiction. Decisions involving the disposal of 
acquired federal surplus lands, unless otherwise authorized by specific 
legislation, must follow Sec. 203 of the Federal Property and 
Administrative Services Act of 1949 (40 U.S.C. 541), and are made by 
the General Services Administration.
    In general, the Federal government does not support transfers of 
title to Federal property when those transfers circumvent existing 
procedures.
    Question 4b. In 1998, didn't Reclamation propose releasing any 
interest it had in Tingley Beach or San Gabriel Park for $1.00? As part 
of that analysis, didn't Reclamation determine that Tingley Beach or 
San Gabriel Park were surplus to the needs of the Middle Rio Grande 
Project?
    Answer. The United States has not relinquished its interest in 
parcels specified in the legislation. On November 25, 1997, Middle Rio 
Grande Conservancy District (MRGCD) and the City of Albuquerque (City) 
entered into a real estate sales agreement through which the MRGCD sold 
the City approximately 65 acres of land associated with San Gabriel 
Park and Tingley Beach for $3,875,000. Reclamation did determine these 
parcels are in excess to the Project, release was proposed to involve 
an estate held in easement. Subsequent research by the United States 
concluded that the lands involved in the Sales Agreement were in fact 
held in fee title and would therefore require disposal under Sec 203 of 
the Federal Property and Administrative Services Act of 1949, which is 
conducted by the General Services Administration.
    Question 5a. H.R. 2381 - What work plan is being implemented to 
fulfill the requirements of the Harmful Algal Bloom and Hypoxia 
Research and Control Act of 1998? What resources has USGS committed 
over the last 4 years for this effort? What is the budget request for 
FY 2009?
    Answer. The Harmful Algal Bloom and Hypoxia Research and Control 
Act of 1998 called for a national assessment of the causes and 
consequences of coastal hypoxia, a region-specific assessment of the 
causes and consequences of hypoxia in the northern Gulf of Mexico, 
including establishment of a Gulf Task Force, and development of an 
Action Plan to address Gulf hypoxia. Since enactment, the U.S. 
Geological Survey (USGS) participated in development of the national 
hypoxia assessment, titled ``An Assessment of Coastal Hypoxia and 
Eutrophication in U.S. Waters'' (CENR, 2003). USGS contributed to and 
participated in activities of the Mississippi River/Gulf of Mexico 
Watershed Nutrient (Gulf of Mexico Hypoxia) Task Force that led to the 
following Task Force publications:

          1) ``Flux and Sources of Nutrients in the Mississippi-
        Atchafalaya River Basin: Topic 3 Report for the Integrated 
        Assessment on Hypoxia in the Gulf of Mexico (Goolsby, 1999);
          2) ``Hypoxia in the Northern Gulf of Mexico: An Integrated 
        Assessment'' (CENR, 2000), an integrated science assessment 
        used as a basis for the Action Plan;
          3) ``Action Plan for Reducing, Mitigating, and Controlling 
        Hypoxia in the Northern Gulf of Mexico'', the Action Plan 
        identified in the statute; and
          4) ``A Science Strategy to Support Management Decisions 
        Related to Hypoxia in the Northern Gulf of Mexico and Excess 
        Nutrients in the Mississippi River Basin'' (USGS Circular 1270, 
        2004), which identified, and provided a plan for development 
        of, the scientific information upon which management actions 
        could be adapted.

    At this time, USGS is also working with NOAA and others on a new 
national hypoxia assessment report expected to be drafted in 2008 and 
completed by early 2009. USGS has participated in the development of a 
new science assessment and development of an updated Action Plan for 
Gulf of Mexico hypoxia, accessible on the Internet at: http://
www.epa.gov/msbasin/taskforce/pdf/2008draft_actionplan.pdf
    In addition to the Gulf of Mexico Hypoxia Task Force, USGS 
participates in other ocean-related activities through the Joint 
Subcommittee on Ocean Science and Technology (e.g., the Interagency 
Work Group on Hypoxia). USGS also continues to monitor water-quality 
conditions within the Mississippi River basin and on a limited basis 
for other watersheds around the nation that discharge to coastal 
estuaries. For example, USGS has long-term monitoring stations funded 
through the National Water Quality Assessment Program (NAWQA) and the 
National Stream Quality Accounting Network (NASQAN) where samples are 
collected to determine:

          1. Concentrations and loads of nitrogen, phosphorus, carbon, 
        silica, dissolved solids, selected pesticides, and suspended-
        sediment to coastal waters of the U.S., and
          2. Changes in concentrations and loads of these constituents 
        through time.

    Specific objectives for the Mississippi River Basin are to 
determine:

          1. Seasonal loads of total and dissolved nutrients from the 
        Mississippi River Basin to the Gulf of Mexico,
          2. Concentrations and loads of constituents in major sub-
        basins within the Mississippi River Basin, and
          3. Changes in concentrations and loads of constituents 
        through time in major sub-basins of Mississippi River Basin.

    On an annual basis USGS reports the loads of nutrients delivered to 
the Gulf of Mexico to support model estimates of expected hypoxia 
extent, and for additional research. On a longer-term basis (about 
every 5 years), USGS publishes interpretations of trends in coastal 
delivery (Aulenbach et al., 2007).
    USGS also, in cooperation with the U.S. Army Corps of Engineers and 
the five upper Mississippi River Basin States (Minnesota, Wisconsin, 
Iowa, Illinois, and Missouri), operates the Long Term Resource 
Monitoring Program (LTRMP, http://www.umesc.usgs.gov/ltrmp.html). The 
monitoring system encompasses the commercially navigable reaches of the 
Upper Mississippi River (UMR), as well as the Illinois River and 
navigable portions of the Kaskaskia, Black, St. Croix, and Minnesota 
Rivers. The LTRMP provides decision makers with the information needed 
to maintain the Upper Mississippi River System as a viable multiple-use 
large river ecosystem, and LTRMP collects water quality, fish, 
vegetation, and macroinvertebrate data.
    USGS is using its Spatially Referenced Regressions on Watershed 
Attributes (SPARROW, http://water.usgs.gov/nawqa/sparrow/) model to 
support identification of contributing land use activities and 
geographic areas for nutrients transported to the Gulf of Mexico. In 
addition, the NAWQA program is supporting development of a regional 
SPARROW model in the upper Mississippi River Basin based on historical 
monitoring data, which entails the evaluation and addition of other 
federal, state and non-governmental water-quality data bases to 
increase the amount of water-quality data that can be used to describe 
the condition of streams in the basin.
    On a broader basis, the SPARROW model is being used to identify 
sources of nutrients in the entire Mississippi River Basin. Information 
about nutrients and data available in the Mississippi Basin are 
available on the web at the USGS site http://toxics.usgs.gov/hypoxia/
index.html and on the EPA Gulf of Mexico Hypoxia Task Force site, at 
http://www.epa.gov/msbasin/index.htm.
    Resources USGS commits to these efforts are primarily part of the 
NASQAN funding and some funding for the National Monitoring Network 
(NMN) that was designed in collaboration with the Advisory Committee on 
Water Information. The NMN has a focus of monitoring rivers that 
discharge to coastal water bodies, and thus complements NASQAN 
activities. Together, NASQAN and NMN monitor streamflow and loads of 
selected chemicals at the mouth of the 18 largest (in terms of 
streamflow and nutrient loads) rivers draining to U.S. coastal waters, 
and 19 additional stations within the Mississippi River Basin that 
monitor the source origins of streamflow and nutrients. USGS also 
contributes staff time to analyze data, report on loads, and generate 
reports. Annually, the amount has been about $2 million per year, but 
with the NMN efforts starting in FY 2008, the amount is about $3 
million. In FY 2009, USGS expects the level of activities for NASQAN, 
LTRMP, and NMN to be similar to previous years.
    Question 5b. Your testimony notes that H.R. 2381 ``describes a 
program consistent with current USGS activities''? What activities of 
H.R. 2381 are currently being carried out, and what activities in the 
bill are not being carried out?
    Answer. The current surface water quality monitoring activities 
under the NAWQA, NASQAN, LTRMP, and NMN are using methods and 
approaches for monitoring and analysis that would be applicable to the 
requirements of HR 2381. Thus HR 2381 would not require new methods or 
approaches to assessment.
    Requirements of HR 2381 that are not a current focus of USGS 
activities include 1) a specific focus on monitoring in the upper 
Mississippi River Basin (MSRB) at the level provided in the bill, and 
2) the inclusion of modeling sources for both sediments and nutrients 
from the upper Basin. Currently, for impacts to the Gulf of Mexico, 
USGS monitors on a much broader scale and the focus is on nutrients. 
Even when the regional SPARROW model is developed, its general focus 
will be for identification of nutrient sources, not sediment sources. 
To adjust the current USGS efforts and accommodate the provisions of HR 
2381, more river locations would have to be monitored within the upper 
MSRB so that source locations can be identified. Accomplishing the 
sediment monitoring and modeling effort would require more frequent 
monitoring than is presently done in monitored areas within the upper 
MSRB. Both of these activities would require additional budgetary 
resources and would be subject to the normal budget and priority 
setting process.
    Aulenbach et al., 2007, Streamflow and Nutrient Fluxes of the 
Mississippi-Atchafalaya River Basin and Subbasins for the Period of 
Record Through 2005: http://toxics.usgs.gov/pubs/of-2007-1080/
    CENR, 2000, Hypoxia in the Northern Gulf of Mexico: An Integrated 
Assessmenthttp://oceanservice.noaa.gov/products/hypox_final.pdf
    CENR, 2003, Assessment of Coastal Hypoxia and Eutrophication in 
U.S. Waters: http://www.eutro.org/documents/HABHRCA%20hypoxia.pdf
    Goolsby et al., 1999, Flux and Sources of Nutrients in the 
Mississippi-Atchafalaya River Basin: Topic 3 Report for the Integrated 
Assessment on Hypoxia in the Gulf of Mexico: NOAA Coastal Ocean Program 
Decision Analysis Series, No. 17, http://oceanservice.noaa.gov/
products/pubs_hypox.html#Topic3
    Mississippi River/Gulf of Mexico Watershed Nutrient Task Force, 
2001, Action Plan for Reducing, Mitigating, and Controlling Hypoxia in 
the Northern Gulf of Mexico:http://www.epa.gov/msbasin/taskforce/pdf/
actionplan.pdf
    USGS Circular 1270, 2004, A Science Strategy to Support Management 
Decisions Related to Hypoxia in the Northern Gulf of Mexico and Excess 
Nutrients in the Mississippi River Basin:http://pubs.usgs.gov/circ/
2004/1270/
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Martin J. Chavez, Mayor, City of Albuquerque, NM, on S. 
                                  2370
    After an extended number of outright lies at a number of levels at 
the Department of the Interior, the City of Albuquerque again 
respectfully seeks to clear title to its Bio Park property.
    I must say that despite the now repeated pattern of having the 
proverbial football pulled out from in front of our foot, I am 
nonetheless stunned to learn that the Bureau of Reclamation has filed a 
statement in opposition. I was personally assured by then Secretary of 
the Interior Norton (who apologizes for the Bureau of Reclamation) and 
her representatives that Interior and Reclamation would not oppose this 
legislation. Indeed, this legislation was proposed and initiated by the 
Bureau of Reclamation.
    Yet each time the corrective legislation it is introduced, 
Reclamation submits a statement in opposition, effectively killing the 
legislation. We feel like Charlie Brown falling for big sister Lucy's 
trick yet again.
    The Bio Park is a jewel of the City of Albuquerque. It contains 
zoological and botanical gardens, an aquarium, parks and other 
recreational features along the banks of the Rio Grande. The property 
is located in one of the oldest parts of a city that itself is over 
three hundred years old.
    November 25, 1997, after leasing the lands from the Middle Rio 
Grande Conservancy District (MRGCD) for close to thirty years, the City 
purchased a significant portion of the Bio Park lands from MRGCD (for 
about $4 million). The City was issued title insurance during the 
transaction which did not reflect any clouds on the title to the 
property. For the leasehold, the consent of the Bureau of Reclamation 
was sought and obtained because Reclamation had an ``easement'' across 
the lands. At the time of the 1997 purchase, Reclamation gave no 
indication that it asserted or might assert an ownership interest in 
the Bio Park lands. Rather, the Bureau's concerns were with the Rio 
Grande and a handful of canals nearby and the Silvery Minnow.
    Subsequently, the City sought a release of the Reclamation 
easement. An archeologist at Reclamation was requested to approve the 
proposed release. She, Signa Laralde, advised Ted Pearson, Deputy City 
Attorney, that Reclamation asserted actual ownership to the lands. As a 
result, Mr. Pearson placed the City's title company on notice. The City 
began its efforts to resolve Reclamation's claims. These efforts 
included the Mayor (myself) and other City officials traveling to 
Washington to meet with the Secretary of Interior and others regarding 
Bureau of Reclamation's claims. At that time, Secretary Norton 
apologized for the actions of her Bureau of Reclamation and assured me 
that the Department of Interior would not oppose the special 
legislation to clear title. I returned from Washington believing the 
problem solved. I left office as the City's mayor.
    This brings us to 2005 when I am once again mayor of the City of 
Albuquerque. MRGCD and the United States Bureau of Reclamation are 
disputing the ownership of lands that the MRGCD regard as conservancy 
district property. Litigation followed as a part of the so-called 
Silvery Minnow suit.
    Because maps and legal descriptions of the area have changed over 
the years, some boundaries are vague. For example, early descriptions 
were typical of the time, referring to landmarks. By the mid-20th 
century, conservancy district maps were in common use. As the area grew 
and development increased, areas were platted and replatted, 
occasionally giving rise to confusion such as ``which Lot 2-A do you 
mean?''
    At the time of the 2005 litigation, I learned that, due to 
Reclamation's actions, the legislation had not passed and that 
Reclamation still raised issues regarding its purported ownership to 
the City's Bio Park. Consequently, the City intervened in the quiet 
title proceedings initiated by the MRGCD which were a component of a 
larger federal court proceeding.
    Meanwhile, the New Mexico Congressional delegation, both 
Republicans and Democrats, introduced a new bill to direct Reclamation 
to issue a quit claim of the Bio Park lands to the City. The 
legislation passed the Senate quickly; however, at the House committee 
hearing, on September 27, 2005, Jack Garner, Acting Deputy Commissioner 
and Deputy Director of Operations Bureau of Reclamation, submitted a 
statement in opposition to the bill. The bill died without further 
action.
    Director of Operations, Mr. Quint, misrepresents the current state 
of affairs:

  <bullet> Representatives of the Reclamation's Albuquerque office 
        cooperated with the City in providing the legal description to 
        the Congressional staff for insertion in the bill, representing 
        they supported clearing title to the Bio Park. Those employees 
        were surprised to learn of Mr. Quint's Statement in opposition.
  <bullet> No litigation is pending involving the land which is the 
        subject of this legislation. The appellate proceeding 
        referenced by Mr. Quint does not involve the Bio Park. In March 
        of 2006, on behalf of the Bureau of Reclamation, the United 
        States Department of Justice, Environmental and Natural 
        Resources Division, in case number 05-2315 (the silvery minnow 
        case), filed a motion with the United States 10th Circuit Court 
        of Appeals in which the DOJ attorney stated:

          Nor has the United States sought to client title in either 
        Tingley Beach or San Gabriel Park, either in this litigation or 
        any other litigation. Most important, neither the district 
        court's opinion nor judgment on MRGCD'S cross-claims purport to 
        adjudicate the interest of the United States or the City in any 
        property in which the City claims ownership. (Add G, H) [R. 
        665, 666]. Thus the district court's judgment does not have res 
        judicata effect on the title of any property in which the City 
        claims ownership, including Tingley Beach and San Gabriel Park.

    As a result of the motion by the DOJ and the concurring motion of 
the City in reliance on the DOJ's representations, the 10th Circuit 
appeal involving the City's Bio Park lands was dismissed.
    The Bureau of Reclamation maintains it is not presently asserting 
ownership to the City's Bio Park lands. It has refused to acknowledge 
that it never will assert such ownership; in fact, it reserves that 
right. This refusal by the Reclamation to concede that it has no 
ownership interest in the City's Bio Park causes the City great 
concern.
    The City wishes to continue to improve its Bio Park without the 
slightest risk or threat that the Bureau of Reclamation will assert 
ownership at some point in the future. The City earnestly desires this 
matter be resolved once and for all. The City seeks to have its title 
cleared and to have Reclamation emphatically state by way of a quit 
claim deed that it has no interest in these lands.
    The City respectfully requests that the Congress approve by this 
legislation a directive to the Bureau of Reclamation to issue a 
quitclaim to the property described in the bill, ending this issue once 
and for all, and thereby assuring the Citizens of the City of 
Albuquerque that its Bio Park is truly theirs, removing all clouds on 
the title.
    Mr. Chairman, I am happy to respond to any questions that the 
Committee may have.
                                 ______
                                 
Statement of Barry Drazkowski, Executive Director, GeoSpatial Services, 
           Saint Mary's University of Minnesota, on H.R. 2381
    Good afternoon. Thank you, Chairman Johnson and Members of the 
Subcommittee, for this opportunity to submit this testimony in support 
of H.R. 2381. My name is Barry Drazkowski and I am Executive Director 
of GeoSpatial Services, at Saint Mary's University of Minnesota, on the 
Mississippi River in Winona, Minnesota. I am proud to be the coauthor, 
with Mr. Rory Vose, of the Upper Mississippi Basin Stewardship 
Initiative, which is the basis for H.R. 2381, the Upper Mississippi 
River Basin Protection Act. We collaborated with the Upper Basin's 
major agricultural organizations, Federal and State Agencies, and non 
government conservation organizations. The principles and components of 
the Initiative reflect the unanimous support of those organizations. 
This Bill represents the monitoring and assessment portion of the 
Stewardship Initiative. I was Deputy Director of the Department of 
Interior and U.S. Army Corps of Engineer's Upper Mississippi River Long 
Term Resource Monitoring Program and developed intimate knowledge of 
the water quality, nutrient, habitat, and management issues facing the 
Upper Mississippi Basin. Over the past eleven years I developed Saint 
Mary's University's GeoSpatial Services. I am proud of our achievement 
of mapping over 100 million acres of wetlands for the Fish and Wildlife 
Service, the National Park Service, and numerous States resource 
agencies. We also achieved preferred contractor status for BP Pipelines 
and Logistics of North America in support of their safety and integrity 
and database development operations. I formed and implemented the Upper 
Mississippi River Stakeholder Network as the Stewardship Initiative's 
public outreach and coordination component, and published the 
Mississippi Monitor, a conservation advocacy newspaper distributed to 
over 10,000 subscribers across the Upper Basin and Washington D.C. 
Finally, I live on a small farm in the rugged bluff country of western 
Wisconsin and see first hand the impact sediment and nutrients have on 
our quality streams and Mississippi River ecosystem. I am pleased to 
offer the following comments regarding the Upper Mississippi River 
Basin Protection Act (H.R. 2381).
                                overview
    My career experiences working both as a researcher, manager, and 
conservation advocate on the Mississippi River Basin's water quality, 
nutrient, habitat, and watershed resources are reflected in my strong 
and enthusiastic support for the Upper Mississippi River Basin 
Protection Act (H.R. 2381). I commend Representatives Ron Kind, Tim 
Walz, and their House colleagues in addressing the basin's water 
resource needs and their commitment to providing sound scientific data 
upon which to make future resource management decisions. I have worked 
closely with the sponsors of H.R. 2381 on previous versions of the 
legislation including H.R. 4013 in the 106th Congress, H.R. 1800 and 
H.R. 3480 in the 107th Congress, and H.R. 2381 in the 108th Congress. 
The fact that this legislation has been introduced in four 
Congressional sessions and undergone numerous changes in response to 
suggestions from both state and federal water agencies, as well as 
stakeholders in the basin, is testimony to the tenacity and patience of 
its sponsors and the significance of its programs. I am hopeful that 
this Senate hearing marks the final leg of the journey to enactment of 
H.R. 2381.
               the importance of monitoring and modeling
    Both sediment and nutrients have a profound affect on the quality 
of lakes, rivers, and streams throughout the Upper Mississippi River 
Basin. Sediment fills in valuable wetlands and streams throughout the 
basin, as well as the unique backwater habitats and navigation channel 
of the Mississippi River. Excess nutrients degrade water quality, 
impairing rivers and streams and threatening ground water supplies. In 
addition, excess nutrients from the Mississippi River Basin have been 
linked to oxygen depletion in the Gulf of Mexico, resulting in what is 
known as Gulf hypoxia. Nutrients and sediment originate across the 
broad expanse of the Upper Mississippi River Basin. They are the by 
product of seventy years of Federal agriculture policy and basin land 
use. They are the principle target and/or consequence in our multi 
billion dollar Farm Bill. They are also the target of the multi billion 
dollar Mississippi River Navigation and Environmental Sustainability 
Program. However, both programs fail to address value of understanding 
the fate and consequences of sediment and nutrients from the time they 
leave agricultural areas to the time they arrive in the Mississippi 
River. Understanding sediment and nutrient transport, processing, and 
consequences provides Federal and State managers the ability to 
significantly improve the management and deployment of Federal 
agriculture and wetland programs and the implementation of sediment and 
nutrient remediation programs within the Mississippi River. These multi 
billion dollar programs will realize substantial efficiency in meeting 
their Federal objectives through this Bill. The monitoring and modeling 
program authorized in H.R. 2381 is not a scientific luxury; it is a 
management imperative. The data and information resulting from these 
efforts will help guide federal, state, and local programs designed to 
solve the very real problems of water quality and habitat degradation. 
Targeting our efforts to restore wetlands, reduce nonpoint pollution, 
and help agricultural producers apply best management practices, 
depends on good scientific data.
    The need for enhanced sediment and nutrient monitoring in the Upper 
Mississippi River Basin is widely recognized. In the January 2001 
``Action Plan for Reducing, Mitigating, and Controlling Hypoxia in the 
Northern Gulf of Mexico,'' state and federal agencies participating in 
the Mississippi River/Gulf of Mexico Watershed Nutrient Task Force 
called for ``increasing the scale and frequency of monitoring of both 
the extent of the hypoxic zone and the sources of nutrients and 
conditions of waters throughout the basin.'' In an October 23, 2001 
letter to Bush Administration officials, six Governors of Mississippi 
River Basin states urged that federal programs to reduce nutrient 
inputs be enhanced. In this regard, the Governors stated that a 
``monitoring effort conducted jointly by the U.S. Geological Survey and 
the states is required within the basin to determine the water quality 
effects of the actions taken and to measure the success of efforts on a 
sub-basin and project level.'' H.R. 2381 reflects just the type of 
increased monitoring effort that has been proposed by both the Task 
Force and the Governors.
                     specific comments on h.r. 2381
  <bullet> Sediment and Nutrient Monitoring.--The monitoring network 
        and modeling efforts described in H.R. 2381 are designed to 
        address both sediment and nutrients. However, the sources, 
        transport, delivery, and impacts of sediment and nutrients are 
        not identical and will require different monitoring and 
        modeling approaches. Moreover, there are natural baseline 
        levels of sediment and nutrients that would occur without human 
        activity. For many water bodies in the basin, acceptable levels 
        of sediment and nutrient impairment have not been identified. 
        While it may not be necessary for the legislation to explicitly 
        acknowledge or accommodate these considerations, they will be 
        critical in the design of the monitoring network and in 
        development of the models. Developing and maintaining the 
        database supporting both this important monitoring effort and 
        implementation of Federal programs affecting sediment and 
        nutrient production is critical to successfully implementing 
        this effort and to realize the full value of the multi billions 
        of dollars spent on Federal agricultural programs. This 
        database as described in Section 102 is a critical bill 
        component. This data must both be available and integrated into 
        existing agricultural and wetland program deployment and 
        management to realize Federal nutrient and sediment management 
        objectives. Creating this system is not a trivial task as 
        realized by the Great Lakes Commission in their struggle with 
        this data issue. It will take a concerted effort on the part of 
        the USGS to develop a system that effectively meets this very 
        important objective. However, it is of equal importance and 
        added difficulty, to realize this objective while recognizing 
        and maintaining the privacy rights of land owners. This Bill 
        should not result in the unintended consequences of creating 
        Federal regulatory actions through its data availability. The 
        data should be protected and guarded to guarantee the privacy 
        of Upper Mississippi River Basin landowners. Federal privacy 
        Codes must be evaluated to insure they provide this protection 
        and that USGS can build a data management system that achieves 
        the difficult task of protecting privacy, yet realizing the 
        core objective of targeting problematic sediment and nutrient 
        producing watersheds with appropriate Federal remediation 
        programs. In part, this is why Section 104 of the bill is a key 
        provision. Section 104 requires that USGS collaborate with 
        other federal agencies, states, tribes, local units of 
        government, and private interests in establishing the 
        monitoring network. Such collaboration should help ensure that 
        the design of the monitoring network yields information 
        relevant to both sediment and nutrient management issues. I 
        strongly recommend that the USGS develop partnerships with 
        academic organizations to both insure scientific integrity and 
        to provide a vehicle for protecting data privacy.
  <bullet> Relationship to Existing Efforts.--Sections 103 and 104 
        require that USGS coordinate with other agencies and programs 
        and build upon existing monitoring efforts. Such provisions are 
        critical to the ultimate success of the new monitoring and 
        modeling initiatives authorized in H.R. 2381. For example, it 
        is important that a basin-wide monitoring network be linked to 
        on-going work in the basin's tributary watersheds, such as the 
        sediment transport modeling in the Illinois river watershed, 
        the Minnesota river watershed, and the developing number of 
        State/local partnership intent on addressing local watershed 
        sediment and nutrient problems. It is our expectation that the 
        monitoring network and modeling activities authorized in H.R. 
        2381 be designed and implemented consistent with and building 
        on these important local initiatives.
  <bullet> Computer Modeling and Research and Electronic Information 
        Dissemination.--Sections 201 and 202 are the heart and soul to 
        realizing and understanding the transport and fate of the 
        Basin's sediment and nutrients. It is the mechanism through 
        which Federal and State programs will target watershed 
        management, wetland restoration, and Farm Bill Energy and 
        Conservation title programs to realize nutrient and sediment 
        impact reduction. The USGS will be challenged to create and 
        electronically distribute this information to the appropriate 
        Federal and State management programs, while maintaining 
        landowner privacy as guaranteed in Section 102. I strongly 
        recommend that USGS consider utilizing existing Upper Basin 
        university-based capacity to assist in the modeling and 
        information dissemination responsibilities to achieve the 
        intended benefits, implement the program in a cost effective 
        manner, and build on existing infrastructure reducing the need 
        to build new Federal infrastructure and costs.
  <bullet> Additional New Funding.--Section 301 of H.R. 2381 authorizes 
        annual appropriations of $6.25 million for this new monitoring 
        and modeling effort. I strongly recommend that the Senate 
        consider increasing this appropriation to $10 million. The 
        scale of collaboration, monitoring, and modeling and the 
        importance this initiative has to the multi billion dollar 
        agriculture and Mississippi River program, seems to logically 
        justify an increase in the appropriation to insure Federal 
        interests are served in its implementation. It is equally 
        important that this funding represent additional new resources, 
        rather than a redirection of existing Federal resources. H.R. 
        2381 emphasizes integration of existing monitoring efforts and 
        use of existing data, a strategy that will certainly help to 
        leverage scarce resources. However, integration of existing 
        efforts is not a substitute for a real increase in the level of 
        effort. And most importantly, this increased effort must not 
        come at the expense of other important USGS programs such as 
        the National Water Quality Assessment Program (NAWQA) or the 
        National Stream flow Information Program (NSIP). In particular, 
        stream gauging supported by NSIP provides flow data that will 
        be critical to successfully monitoring and modeling sediment 
        and nutrient loads. We cannot afford to lose any of that stream 
        flow data, and in fact will likely need to increase discharge 
        measurements.
  <bullet> National Research Council Assessment.--Section 106 of H.R. 
        2381 directs the National Research Council of the National 
        Academy of Sciences to conduct a ``comprehensive water 
        resources assessment of the Upper Mississippi River Basin.'' In 
        the context of this legislation, it is my assumption that such 
        an assessment would be focused on the specific water quality 
        issues associated with sediment and nutrients and their 
        relationship to land use watershed policies. As such, it is 
        critical to the scoping and implementation of the monitoring 
        and modeling authorized in H.R. 2381.

    Thank you for the opportunity to share my views with you and assert 
my strong support for H.R. 2381.

                                    

      

</pre></body></html>
